                                                                             Report No. DODIG-2014-108




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              SEPTEMBER 16, 2014




                     Evaluation of the Military Criminal
                     Investigative Organizations’ Adult
                     Sexual Assault Investigation Policies




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
      Our mission is to provide independent, relevant, and timely oversight
      of the Department of Defense that supports the warfighter; promotes
      accountability, integrity, and efficiency; advises the Secretary of
                 Defense and Congress; and informs the public.



                                              Vision
      Our vision is to be a model oversight organization in the Federal
      Government by leading change, speaking truth, and promoting
      excellence—a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                                        Fraud, Waste & Abuse

                                        HOTLINE
                                        Department of Defense
                                         dodig.mil/hotline | 8 0 0 . 4 2 4 . 9 0 9 8




For more information about whistleblower protection, please see the inside back cover.
                                Results in Brief
                                Evaluation of the Military Criminal Investigative
                                Organizations’ Adult Sexual Assault Investigation Policies



September 16, 2014                                 Observations (Cont’d)

Objective                                             •	 A few IACP investigative guidelines and investigative
                                                         strategies are partially addressed in MCIO adult sexual
We evaluated the Military Criminal Investigative         assault investigative policies and guidance but could be
Organizations’ (MCIOs’) adult sexual assault             enhanced with language modification.
investigation policies to determine whether
they aligned with:                                    •	 Naval Criminal Investigative Service (NCIS) and Air Force
                                                         Office of Special Investigations (AFOSI) investigative
   •	 DoD requirements,                                 policies address a victim’s right to Special Victim Counsel
   •	 Service requirements,                             (SVC) if involved in collateral misconduct; however,
                                                        they do not address what the investigator should
   •	 Council of Inspectors General on                  do when encountering victim collateral misconduct.
      Integrity and Efficiency (CIGIE) Quality
      Standards for Investigations (QSIs), and        •	 NCIS policy related to the victim preference statement
                                                         (used when a victim decides not to cooperate with an
   •	 Accepted law enforcement investigative             investigation) contains potential victim blaming language.
      techniques.

                                                   Recommendations
Observations                                          •	 The MCIOs evaluate IACP adult sexual assault investigative
   •	 MCIO investigative policies generally              techniques identified as not currently aligned within
      align    with   DoD    and    Service              MCIO policy for their relevance and applicability and
      requirements for adult sexual assault              consider incorporating them into their adult sexual assault
      investigations.                                    investigation policy guidance.

   •	 MCIO investigative policy addresses             •	 The Director, NCIS, and the Commander, AFOSI, evaluate
      the CIGIE QSIs that are related to                 the benefits and efficiencies of including DoD and Service
      conducting      high-quality criminal              sexual assault investigative policies in MCIO policies.
      investigations.
                                                      •	 The Director, NCIS, and the Commander, AFOSI, evaluate
   •	 MCIO investigative policies consider               their procedures in a sexual assault investigation
      nearly all of the applicable International         relating to victim collateral misconduct.
      Association of Chiefs of Police
      (IACP) investigative actions in their           •	 The Director, NCIS, evaluate policy related to the victim
      sexual assault investigative policies              preference statement and remove language that could
      and guidance.                                      cause agents to make statements that might be construed
                                                         as implied victim blaming.




Visit us at www.dodig.mil


                                                                                   DODIG-2014-108 (Project No. 2011C019) │ i
                                        Results in Brief
                                        Evaluation of the Military Criminal Investigative
                                        Organizations’ Adult Sexual Assault Investigation Policies




  Management Comments and                                    recommendations, but objected to our evaluation in
                                                             a number of areas in the report. As a result of
  Our Response                                               management comments, we performed additional
  The Commander, U.S. Army Criminal Investigation            evaluations of policies, evaluated work for relevance, and
  Command expressed concerns regarding the timeliness        revised the report in some areas. No further comments
  and accuracy of the report. The Director, NCIS, and        are required.
  the Commander, AFOSI, agreed in part with our




ii │ DODIG-2014-108 (Project No. 2011C019)
Recommendations Table
                                                              No Additional
                          Management                        Comments Required
The Director and Commanders of the Military Criminal                                1
Investigative Organizations
The Director, Naval Criminal Investigative Service                        2, 3, and 4
The Commander, Air Force Office of Special Investigations                    2 and 3




                                                                DODIG-2014-108 (Project No. 2011C019) │ iii
                                              INSPECTOR GENERAL
                                              DEPARTMENT OF DEFENSE
                                              4800 MARK CENTER DRIVE
                                           ALEXANDRIA, VIRGINIA 22350-1500



                                                                                        September 16, 2014

             MEMORANDUM FOR COMMANDER, U.S. ARMY CRIMINAL INVESTIGATION COMMAND
                            DIRECTOR, NAVAL CRIMINAL INVESTIGATIVE SERVICE
                            COMMANDER, U.S. AIR FORCE OFFICE OF SPECIAL INVESTIGATIONS

             SUBJECT: Evaluation of the Military Criminal Investigative Organizations’ Adult Sexual Assault
                      Investigation Policies (DODIG-2014-108)

             We are providing this report for information and use. We evaluated the Military Criminal
             Investigative Organizations’ (MCIOs’) adult sexual assault investigative policies to
             determine if they align with DoD and Service policies, the Council of Inspectors General on
             Integrity and Efficiency (CIGIE) Quality Standards for Investigations, and the International
             Association of Chiefs of Police (IACP) sexual assault investigative protocols.

             We determined the MCIOs’ policies were comprehensive and aligned with DoD, Service,
             and CIGIE requirements and investigative actions. Further, almost all IACP sexual assault
             investigative actions, pertinent to MCIO investigations, are addressed in MCIO guidance.
             However, some MCIO policies could be enhanced to help ensure a more comprehensive
             approach to sexual assault investigations.

             We considered management comments on a draft of this report when preparing the final
             report. Comments from the Commander, U.S. Army Criminal Investigation Command;
             Director, Naval Criminal Investigative Service; and Commander, Air Force Office of Special
             Investigations, conformed to the requirements of DoD Directive 7650.3. Therefore, no further
             comments are required.

             We appreciate the courtesies extended to the evaluation staff during the evaluation. For
             additional information on this report, please contact Mr. Chris Redmond at (703) 604-8556
             (DSN 664-8556).




             	                                             Randolph R. Stone
             	                                             Deputy Inspector General
             	                                             Policy and Oversight




iv │ DODIG-2014-108
Contents
Introduction
Objectives_________________________________________________________________________________________1
Background_______________________________________________________________________________________1

Observation. The MCIOs’ Adult Sexual Assault
Investigative Policies Align with DoD and
Service Policy Requirements, Federal Inspector
General Investigative Quality Standards, and
Law Enforcement Industry Adult Sexual Assault
Investigative Techniques______________________________________________________3
MCIO Policy Alignment with DoD Requirements _____________________________________________3
MCIO Policy Alignment with Military Service Requirements ________________________________4
MCIO Policy Alignment with CIGIE QSI Actions ______________________________________________4
MCIO Policy Alignment with Law Enforcement (IACP) Adult Sexual Assault
   Investigative Techniques____________________________________________________________________5
Other Observations______________________________________________________________________________6
    Subject Matter Experts______________________________________________________________________6
    Victim Cooperation Decision ______________________________________________________________7
    Collateral Misconduct_______________________________________________________________________9
MCIO Policies on Investigative Techniques__________________________________________________ 12
Conclusions_____________________________________________________________________________________ 14
Management Comments on the Report and Our Response_________________________________ 16
Recommendations, Management Comments, and Our Response__________________________ 17

Appendixes
Appendix A. Scope and Methodology________________________________________________________ 21
Appendix B. References_______________________________________________________________________ 24
Appendix C. Comparison of DoD-Mandated Requirements Across MCIOs________________ 29
Appendix D. Comparison of Service-Mandated Requirements by MCIO__________________ 32
Appendix E. Comparison of CIGIE QSI Actions Across MCIOs______________________________ 38
Appendix F. Comparison of IACP Actions Across MCIOs_ __________________________________ 41




                                                                                                       DODIG-2014-108 │ v
                  Contents (cont’d)
                  Appendix G. Requirements CID Should Consider Adding to its Guidance_________________ 49
                  Appendix H. Requirements CID Should Consider Enhancing in its Guidance_____________ 50
                  Appendix I. Requirements NCIS Should Consider Adding to its Guidance________________ 51
                  Appendix J. Requirements NCIS Should Consider Enhancing in its Guidance____________ 53
                  Appendix K. Requirements AFOSI Should Consider Adding to its Guidance______________ 54
                  Appendix L. Requirements AFOSI Should Consider Enhancing in its Guidance__________ 55
                  Appendix M. Independent Review___________________________________________________________ 57

                  Management Comments
                  CID Comments_ ________________________________________________________________________________ 58
                  NCIS Comments________________________________________________________________________________ 62
                  AFOSI Comments______________________________________________________________________________ 64

                  Acronyms and Abbreviations______________________________________________ 68




vi │ DODIG-2014-108
                                                                                                                                   Introduction




Introduction
Objectives
We evaluated the Military Criminal Investigative Organizations’ (MCIOs’) adult sexual
assault1 investigation policies and procedures to determine whether they aligned
with DoD and Military Service mandates, as well as Council of Inspectors General
on Integrity and Efficiency (CIGIE) Quality Standards for Investigations (QSIs)
and accepted law enforcement adult sexual assault investigative techniques. The
MCIOs include the U.S. Army Criminal Investigation Command (CID), Naval Criminal
Investigative Service (NCIS), and Air Force Office of Special Investigations (AFOSI).
See Appendix A for our scope and methodology and Appendix B for a list
of references.


Background
The DoD Office of Inspector General (DoD OIG) has statutory authority in accordance
with the Inspector General Act of 1978, paragraph 8c(5), to “develop policy, monitor and
evaluate program performance and provide guidance with respect to all Department
activities relating to criminal investigation programs.” This authority is embodied in DoD
Directive (DoDD) 5106.01, “Inspector General of the Department of Defense (IG DoD),”
April 20, 2012, paragraph 5., “Responsibilities and Functions,” subparagraph 5.h. and in
paragraph 5.a. of DoD Instruction (DoDI) 5505.03, “Initiation of Investigations by Defense
Criminal Investigative Organizations,” March 24, 2011. The DoD OIG’s responsibilities
regarding the Department’s sexual assault investigations are further specified in DoDD
6495.01, “Sexual Assault Prevention and Response (SAPR) Program,” January 23, 2012,
Incorporating Change 1, April 30, 2013, enclosure 2, “Responsibilities,” paragraphs 5.a.
and 5.b., and DoDI 6495.02, “Sexual Assault Prevention and Response (SAPR) Program
Procedures,” March 28, 2013, Incorporating Change 1, February 12, 2014, enclosure 2,
“Responsibilities,” paragraph 5.a.  This guidance directs the DoD OIG to develop criminal
investigative policy and to oversee the Department’s criminal investigative organizations’
investigations of sexual assaults. It is DoD policy (DoDI 5505.18, “Investigation of Adult
Sexual Assault in the Department of Defense,” January 25, 2013, paragraph 3, “Policy,”
subparagraph 3a) that the MCIOs “will initiate investigations of all offenses of adult sexual
assault of which they become aware.”

	1	
      Sexual assault includes rape, forcible sodomy (oral or anal sex), and other unwanted sexual contact that is aggravated,
      abusive, or wrongful (to include unwanted and inappropriate sexual contact), or attempts to commit these acts.
      The definition generally encompasses offenses classified under Articles 120 and 125 of the Uniform Code of Military
      Justice (UCMJ) (10 United States Code (U.S.C.) Chapter 47, Subchapter X (Punitive Articles)) of the Manual for Courts-
      Martial United States (2012 Edition).




                                                                                                                                DODIG-2014-108 │ 1
Introduction



                 We evaluated DoD, Service, and MCIO adult sexual assault investigative policy guidance
                 that was current as of the start of this evaluation – November 2011. However, before
                 the completion of our evaluation, DoD published DoDI 5505.18, “Investigation of Adult
                 Sexual Assault in the Department of Defense,” on January 25, 2013, and updated its
                 sexual assault prevention and response policies in DoDI 6495.02 on March 28, 2013, and
                 DoDD 6495.01 on April 30, 2013. In response to management comments on the draft
                 report, on June 25, 2014, we obtained current policy guidance from the MCIOs and
                 established June 26, 2014, as the conclusion of the policy evaluation. Additionally, we
                 made appropriate report updates to ensure data accuracy, relevance, and objectivity
                 based on an evaluation and analysis of updated policy issuances.




2 │ DODIG-2014-108
                                                                                         Observation




Observation
The MCIOs’ Adult Sexual Assault Investigative
Policies Align with DoD and Service Policy
Requirements, Federal Inspector General
Investigative Quality Standards, and Law
Enforcement Industry Adult Sexual Assault
Investigative Techniques
The MCIOs’ policies and procedures related to sexual assault investigations with
adult victims support DoD through their alignment with DoD and Military Service
policies. The MCIOs’ investigative policies incorporate CIGIE QSIs that are relative
to the conduct of high-quality criminal investigations, and they align with nearly
all of the pertinent International Association of Chiefs of Police (IACP) adult sexual
assault investigation techniques (investigative actions). We identified only a few
of the IACP investigative actions addressed in MCIO sexual assault investigative
policies that could be enhanced. The observations in this report highlight the MCIOs’
comprehensive approach to adult sexual assault investigations. This report will be
provided to the DoD OIG Policy and Programs Division to determine the need for
additional DoD-level sexual assault investigative policy.



MCIO Policy Alignment with DoD Requirements
MCIO policies align with DoD policy requirements; however, minor enhancements
could improve them. AFOSI could enhance its guidance by requiring 30-day briefings
to the commander who updates the victim on a monthly basis and by adding
specificity to its guidance regarding participation in the case management group.
CID and AFOSI could enhance their guidance in advising victims that Sexual Assault
Response Coordinator (SARC), Victim Advocate (VA), and legal assistance services
are optional. See Appendix C for comparison of DoD-mandated requirements across
MCIOs and Appendixes H and L for details regarding recommended enhancements
to CID and AFOSI policy.




                                                                                     DODIG-2014-108 │ 3
Observation



                 MCIO Policy Alignment with Military
                 Service Requirements
                 CID and AFOSI have incorporated their Service-level sexual assault investigation policy
                 requirements into their current MCIO policies. NCIS has one requirement, which is
                 identified in the recently updated Secretary of the Navy Instruction (SECNAVINST)
                 1752.4B, “Sexual Assault Prevention and Response,” August 8, 2013, enclosure 3,
                 “Responsibilities,” paragraph 4.b., that could be incorporated into NCIS policy guidance.
                 This Instruction addresses the requirement to report sexual assault data for the DoD-
                 Sexual Assault Prevention and Response Office (SAPRO) annual report. We recognize this
                 requirement is being satisfied at the MCIO level, but the requirement is not mentioned
                 within NCIS guidance documents. See Appendix D for a comparison of policies and
                 Appendix I for details regarding recommended additions to NCIS policy.


                 MCIO Policy Alignment with CIGIE QSI Actions
                 CIGIE QSIs apply to CIGIE member organizations (including the DoD OIG).
                 The MCIOs are not CIGIE member organizations. Further, CIGIE QSIs are not limited to
                 sexual assault investigations. Currently, no DoD issuances require the MCIOs to adhere
                 to the CIGIE QSIs.2 Nonetheless, we considered them in this project as a means of
                 gauging the quality of the MCIOs’ investigative policies against an acceptable
                 Federal standard. Additionally, given the DoD OIG’s statutory responsibility to
                 establish policy for and oversee the Department’s criminal investigative programs,
                 an indirect connection exists between CIGIE QSIs and the MCIOs. (The DoD OIG often
                 uses the QSIs as benchmarks during evaluations of MCIO criminal investigative
                 programs and operations.)

                 The 31 QSI actions considered during this evaluation may be applied to any category
                 of civil, administrative, or criminal investigation; they are not limited to adult
                 sexual assault investigations. We also included QSI actions beneficial for a thorough
                 and well-written report of investigation. The MCIOs address the 31 QSI actions in
                 their investigative policies. NCIS had already incorporated CIGIE QSIs into its
                 investigative policy guidance. See Appendix E for a list of these QSI actions.

                 	2	
                       Section 11(c) (2)(A) of The Inspector General Reform Act of 2008 states that members of the CIGIE “shall adhere to
                       professional standards developed by the Council.” In addition, CIGIE, “Quality Standards for Investigations,” 2011 states,
                       “[t]he mission of the Council of the Inspectors General on Integrity and Efficiency (CIGIE) shall be to address integrity,
                       economy, and effectiveness issues that transcend individual Government agencies and increase the professionalism and
                       effectiveness of personnel by developing policies, standards, and approaches to aid in the establishment of a well-trained
                       and highly skilled workforce in the Offices of Inspectors General.” According to the CIGIE website, “[t]he CIGIE is comprised
                       of all Inspectors General whose offices are established under section 2 or section 8G of the Inspector General Act of 1978
                       (5 U.S.C. App[endix]), those that are Presidentially-appointed/Senate Confirmed and those that are appointed by agency
                       heads (designated federal entities).”




4 │ DODIG-2014-108
                                                                                                                                   Observation



MCIO Policy Alignment with Law Enforcement (IACP)
Adult Sexual Assault Investigative Techniques
We considered numerous investigative and sexual assault response team (SART)
protocols3 along with IACP publications to select investigative techniques for conducting
adult sexual assault investigations. The IACP website described that its National
Law Enforcement Policy Center, under the direction of a broad-based advisory board
of recognized law enforcement professionals, developed law enforcement policies,
including a model policy, “Investigating Sexual Assault.” Our evaluation disclosed
that the IACP investigative protocols incorporate input from leading subject matter
experts and research findings from a broad-based advisory board of recognized
law enforcement professionals with extensive field and management experience.
For this evaluation, we selected the following IACP publications as the sources for
identifying the pertinent adult sexual assault investigative techniques:

              •	 “Investigating Sexual Assaults Model Policy,” May 2005 (hereafter referred
                  to as “Model Policy”) and

              •	 “Sexual Assault Incident Reports Investigative Strategies,” December 2008
                  (hereafter referred to as “Investigative Strategies”).

At the time we completed our work, no DoD issuances required the MCIOs to
adhere to the IACP guidelines. We made our observations only to determine whether
the MCIO’s policies and procedures aligned with a set of sexual assault investigative
actions accepted by the law enforcement community.

Our evaluation of the Model Policy and Investigative Strategies identified 92 pertinent
investigative actions related to the MCIOs’ adult sexual assault investigations.
We compared the IACP investigative actions with the MCIOs’ policies, written
procedures (such as, crime scene handbooks, investigative checklists, and other
written guidance), and evidence of pertinent MCIO sexual assault investigative
training (such as, copies of programs of instructions, lesson plans, or lesson
training slides). The table reflects the extent to which each MCIO addressed the
92 IACP actions and the percentage of alignment. The MCIO policies and guidance




	3	
      “Model Guidelines and Sex Crimes Investigation Manual for Illinois Law Enforcement,” May 1996; “Guidelines for Sexual
      Assault Investigation,” California Commission on Peace Officer Standards and Training,” 1999; Massachusetts “Adult
      Sexual Assault Law Enforcement Guidelines 2009;” “Sexual Assault Response Teams (SART): A Model Protocol for Virginia,”
      May 2011; San Diego County “Sexual Assault Response Team (SART) Standards of Practice For Members
      of the Interdisciplinary SART Team,” April 2001; and others.




                                                                                                                                DODIG-2014-108 │ 5
Observation



                 address nearly all (95 percent average) of the IACP actions. See Appendix F for a
                 comparison of IACP actions and Appendixes G through L for details regarding
                 recommended additions and/or enhancements to MCIO policy.

                 Table. MCIO Alignment with Law Enforcement Sexual Assault Investigation Techniques

                              Law Enforcement Techniques                    CID                    NCIS          AFOSI
                     Addressed                                      90            98%      85             92%   88       96%
                     Could be added                                     1          1%          6          7%     3        3%
                     Could be enhanced                                  1          1%          1          1%     1        1%
                      Total                                         92            100%     92         100%      92      100%



                 Other Observations
                 Subject Matter Experts
                 One IACP investigative action (Model Policy paragraph IV.D.2) recommends
                 coordination with other professionals such as forensic examiners. Correspondingly,
                 Government           Accountability   Office   (GAO)       Report       No.       GAO-11-579,       “Military
                 Justice: Oversight and Better Collaboration Needed for Sexual Assault Investigations
                 and Adjudications,” June 2011, reported on page 16 that the Military Services employ
                 “forensic science specialists” and “forensic consultant agent[s]” that “provide
                 specialized forensic science support to field investigators.” Further, “the Air Force
                 employs forensic science consultants and requires its investigators to work
                 with a consultant immediately after being notified of a sexual assault incident.”
                 Within CID, according to U.S. Army Criminal Investigation Command Regulation
                 (CIDR) 195-1, “Criminal Investigation Operational Procedures,” April 22, 2014,
                 paragraph 23.4.d, forensic science officers (FSOs) “respond to crimes scenes, . . . act
                 as the unit sex crimes expert, . . . [and] review investigative reports, with particular
                 emphasis on investigations involving crimes against persons, for investigative
                 sufficiency and to assure applicable forensic techniques are used in the conduct of
                 CID investigations.” NCIS uses a major case response team (MCRT) and, depending
                 on the severity of the sexual offense and nature of the crime scene, may include a
                 forensic science consultant (FSC). NCIS Manual 3, chapter 12, “Physical Evidence
                 and the Crime Scene,” paragraph 12-21, “Development and Implementation of the
                 Major Case Response Team (MCRT),” subparagraph 12-21.3, December 2007, directs
                 that “[NCIS] agents investigating complex scenes should make immediate use of the




6 │ DODIG-2014-108
                                                                                                                                    Observation



MCRT4” [emphasis added]. Further, paragraph 12-22.1 of the Manual states that
NCIS         Forensic       Consultants          “can     respond         with      the     MCRT.”       AFOSI       requires
coordination with a forensic science consultant at the onset of a sexual assault
investigation, in accordance with Air Force Office of Special Investigations
Manual (AFOSIMAN) 71-103, Volume 2, “Forensic Sciences,” August 17, 2011,
paragraph 3.1., “Cases that Must Be Coordinated with a Forensic Science
Consultant/Forensic Sciences Technician (FSC/FST).”                                       Within NCIS and AFOSI,
forensic psychologists are also on staff at MCIO headquarters for consultation.


Victim Cooperation Decision
The following three IACP actions address the victim’s decision to cooperate with
an investigation.

               •	 “Do not pressure the victim to make any decisions regarding participation
                   in the investigation or prosecution during the initial interview or initial
                   stages of the investigation” (Investigative Strategies).

               •	 “In the immediate aftermath of a sexual assault, a victim shall not be
                   expected or encouraged to make decisions regarding the investigation or
                   charges related to the offense. Officers shall not introduce any forms for a
                   victim to sign to decline an investigation” (Model Policy).

               •	 “This department5 shall respect a victim’s inability, or decision not, to be
                   involved in criminal justice proceedings and always be willing to offer
                   continued assistance and referrals” (Model Policy).

Within DoD, policy for sexual assault reporting is guided by DoDD 6495.01,
paragraph 4.k., and DoDI 6495.02, enclosure 4. Some victims may report directly
or indirectly to law enforcement, and some may report to non-law enforcement
personnel. The level at which a victim reports a sexual assault will determine
which of the two reporting options (Restricted or Unrestricted) are available to them.
Victims that report directly or indirectly to command or law enforcement are not
eligible for Restricted Reporting. If the victim is eligible for Restricted Reporting,
enclosure 6, paragraph 1.h.(1)(a), states the SARC shall “[h]ave the victim fill out
the DD Form 2910, “Victim Reporting Preference Statement,” where the victim elects
to make a Restricted or Unrestricted Report.”                               Although this establishes policy to

	4	
       The MCRT is a group of professionals tasked with processing crime scenes and collecting evidence. According to the
       NCIS website, they also “respond to death scenes and assist[s] with the investigation of many other high-impact crimes,
       including sexual and/or aggravated assaults, acts of arson and wrongful destruction, and thefts.”
	 5	
       The IACP uses the term “department” to refer to any investigative agency. As used here, “department” should not be
       construed to identify the DoD or any Service Department.




                                                                                                                                 DODIG-2014-108 │ 7
Observation



                 expect a victim to make a decision and sign a form before an investigation, this
                 decision does not involve law enforcement personnel. The DD Form 2910 is filled
                 out by the victim. According to DoDI 6495.02, enclosure 4, paragraphs 1.c. and 1.e.,
                 victims always have full access to victim services regardless of whether an
                 eligible victim:

                                •	 elects Restricted or Unrestricted reporting, or

                                •	 reports directly or indirectly to command or law enforcement personnel, or

                                •	 agrees or declines to cooperate in the criminal investigation.

                 CIDR 195-1, paragraph 15.1.h.(7), states:

                                    When making a restricted report, the victim is required to acknowledge
                                    in writing his understanding that restricted reporting may limit the
                                    ability of the government to prosecute the assailant and an
                                    understanding of the reasons DOD policy favors unrestricted
                                    reporting. The SAPR VA is responsible for informing the victim of
                                    his options under the restricted versus unrestricted reporting and
                                    for maintaining the document that records the victim’s option.


                 NCIS uses a victim preference statement (VPS)6 when a victim decides not to
                 cooperate in an investigation.  The VPS form has been lauded in a newsletter published
                 by Sexual Assault Training and Investigations (SATI), managed by Archambault
                 Consulting. The May 25, 2005, newsletter states:

                                    SATI’s Training Director. . . was pleased to find that NCIS uses one of
                                    the best waivers. . . [the Director] has seen. Specifically, the form
                                    documents that the victim has had the opportunity to consult with
                                    a victim advocate or other person before making the decision to
                                    suspend the investigation. The form also makes it clear that the victim
                                    is either unwilling or unable to participate at that time, but that
                                    he/she can change her mind at a later time.


                 Related to use of the VPS form, NCIS Manual 3, chapter 34, “Sex Offenses,”
                 paragraph 34-4.8.b, September 2007, states “[t]he agent should explain to the victim
                 the possible consequences of not cooperating. . .” and NCIS Manual 3, chapter 6,
                 “Investigative Theory and Procedures,” paragraph 6-20.16.a., December 2006,
                 states, “[i]n an understanding manner, the agent should explain to the victim the
                 possible consequences of not cooperating, e.g. someone else being victimized by
                 the suspect.” Also, NCIS Manual 3, chapter 34, paragraph 34-4.8.d.(4), directs that

                 	 6	
                        A VPS is a form used to document a victim’s decision to no longer participate in the investigative process. The NCIS
                        VPS documents that the victim had the opportunity to consult with a victim advocate or other person before making
                        the decision to suspend the investigation. The form also makes it clear that if the victim is either unwilling or unable to
                        participate at that time, he/she can change their mind at a later time.


8 │ DODIG-2014-108
                                                                                               Observation



the VPS form “will not be used during the initial interview with the victim unless
the victim specifically requests no further contact with NCIS.”              In addition, in
accordance with NCIS Manual 3, chapter 6, paragraph 6-20.14, “[i]f the victim does
decide to execute the VPS form or otherwise decline[s] to participate in the
investigation, NCIS policy requires that all viable leads be exhausted prior to closing
the investigation.”

AFOSIMAN 71-122, Volume 1, “Criminal Investigations,” September 28, 2012,
paragraph 4.3.5.2, Incorporating All Changes Through Change 2, August 14, 2013, states:

            Agents should ask the VICTIM to complete a written statement
            incorporating the VICTIM’s decision not to participate in the
            investigation. At a minimum, the statement should include the
            VICTIM’s desire not to participate in the investigation and a
            statement indicating the VICTIM understands that he or she may
            provide information at a later time.


We acknowledge the differences between DoD and MCIO guidance requiring or
allowing the use of a form and IACP actions precluding the use of forms.


Collateral Misconduct
One critical issue for the MCIOs is how to proceed with a sexual assault investigation
when it is discovered the victim may have violated a law or military regulation, or
engaged in collateral misconduct. DoDI 6495.02 defines collateral misconduct as:

            Victim misconduct that might be in time, place, or circumstance
            associated with the victim’s sexual assault incident. Collateral
            misconduct by the victim of a sexual assault is one of the most
            significant barriers to reporting assault because of the victim’s fear
            of punishment. Some reported sexual assaults involve circumstances
            where the victim may have engaged in some form of misconduct
            (e.g., underage drinking or other related alcohol offenses, adultery,
            fraternization, or other violations of certain regulations or orders).


The “Report of The Defense Task Force on Sexual Assault in the Military
Services,” December 2009, reported on page 30 that “Service Members also fear
punishment for collateral misconduct such as underage drinking, fraternization,
adultery, or for being at an unauthorized location.”




                                                                                           DODIG-2014-108 │ 9
Observation



                 The following IACP Model Policy action (paragraph D.4.b) addresses victim
                 underage drinking:

                            Protocols for responding to illegal substance abuse by victims
                            (including underage drinking) shall be followed and never
                            used to discredit or discourage the victim from reporting the
                            assault. The department priority is to conduct a thorough
                            investigation of a sexual assault rather than prosecute victims for
                            misdemeanor violations.


                 The IACP Model Policy action is directed toward the actions of police department
                 personnel in investigating adult sexual assaults. As previously mentioned in the
                 Victim Cooperation Decision section, in many instances, the sexual assault victim’s
                 initial contact is with the SARC and not law enforcement or MCIO personnel.
                 DoDI 6495.02, enclosure (6), establishes SARC responsibilities as they relate to
                 sexual assault. DD Form 2910, “Victim Reporting Preference Statement,” section
                 1.d.(7), “Other Important Considerations for Unrestricted and Restricted Reports,”
                 June 2014, states, “I understand that I can also request a defense counsel to advise
                 and assist me in the event that there is evidence that I committed misconduct
                 around the time of the sexual assault allegation (for example, underage drinking).” This
                 statement coincides with the requirement in DoDI 6495.02, enclosure 2, paragraph
                 6.m.(1), March 28, 2013, that the Secretaries of the Military Departments shall:

                            Establish procedures that require, upon seeking assistance from a
                            SARC, SAPR VA, MCIO, the Victim Witness Assistance Program
                            (VWAP), or trial counsel, that each Service member who reports that
                            he or she has been a victim of a sexual assault be informed of and
                            given the opportunity to: . . . [c]onsult with legal assistance counsel,
                            and in cases where the victim may have been involved in collateral
                            misconduct. . . to consult with defense counsel.


                 These protocols do not conflict with the IACP Model Policy because they are only
                 used to protect the victim’s Article 31b, Uniform Code of Military Justice (UCMJ),
                 rights against self-incrimination and are not intended to be used to discredit or
                 discourage the victim from reporting.

                 Additionally, DoDI 6495.02, enclosure 2, paragraph 6.r., states the Secretaries of the
                 Military Departments shall:

                            Establish Military Service-specific guidance to ensure collateral
                            misconduct is addressed in a manner that is consistent and
                            appropriate to the circumstances, and at a time that encourages
                            continued victim cooperation.



10 │ DODIG-2014-108
                                                                                                                                  Observation



The Services have established policies that mirror requirements in DoDI  6495.02,
paragraph 6.m.(1); however, this Instruction does not establish requirements for the
MCIOs. Criminal investigative policy development is the responsibility of the DoD IG
as specified in DoDD 5106.01, paragraph 5.h., which states, the DoD IG will
“establish policy, monitor and evaluate program performance, and provide
guidance with respect to all DoD activities relating to criminal investigation and
law enforcement programs. . . .”

CIDR 195-1, paragraph 15.6.d., describes what it identifies as “non-CID purview
offenses”7 as follows:

                   If the allegation of a non-CID purview offense supports or
                   contradicts the allegation of sexual assault, then the allegation of
                   misconduct will be investigated only to the extent necessary to
                   develop the primary offense of sexual assault. Under this
                   circumstance, rights advisements will be administered when
                   appropriate. . . . Non-CID purview offenses will be referred to the
                   commander, in writing, for action deemed appropriate.


SECNAVINST 5430.107, “Mission and Functions of the Naval Criminal Investigative
Service,” paragraph 6.a, December 28, 2005, states that “NCIS initiates, conducts,
and directs criminal, counterintelligence, terrorism and related investigations and
operations as deemed appropriate. . .” and paragraph 3.i defines a “Major
Criminal Offense” as an “offense punishable under the Uniform Code of Military
Justice (UCMJ), or similarly framed federal, state, local, or foreign statutes, by
confinement for a term of more than one year.” During the Response Systems
to Adult Sexual Assault Crimes Panel (Response Systems Panel) on March 13, 2014,
Subcommittee Meeting: Victim Services Subcommittee, the topic of “collateral
misconduct” was addressed, specifically, how it is handled by investigators.
The following information is listed under the Navy’s response:

                   In the majority of NCIS sexual assault investigations, the victim’s
                   collateral misconduct does not rise to the felony level. Often, the
                   misconduct is a status offense such as underage drinking or adultery
                   or other minor UCMJ violation. That said, if misconduct is uncovered
                   by the investigator during the course of the investigation, that
                   information will be included in the NCIS investigative report and
                   available for a commander to decide a course of action.



	 7	
       CIDR 195-1 paragraph 15-6a, states, “non-CID purview offenses are Conduct Unbecoming an Officer; Failure to Obey
       General/Lawful Order; Fraternization; Improper Relationship; Dereliction of Duty; Underage Drinking; Adultery; APCSM
       [Adult Private Consensual Sexual Misconduct], Adult Pornography, or other strictly unique military offenses.”




                                                                                                                              DODIG-2014-108 │ 11
Observation



                 Further, under Response Systems Panel Recommendation 88, it states:

                             MCIOs document minor collateral misconduct information in the
                             case file, which is provided to the victim’s commander for action,
                             but they do not follow the same practices regarding the legal
                             requirement to stop and advise Service members of their Article
                             31 rights during an interview. Naval Criminal Investigative Service
                             (NCIS) investigators told Panel members that NCIS has an
                             unwritten policy that investigators will not read Article 31(b) rights
                             to victims for minor collateral misconduct, regardless of the law’s
                             requirements, because NCIS only investigates felony level crimes.


                 However, this guidance is not incorporated into NCIS internal policy. NCIS policy,
                 NCIS Manual 3, chapter 7, paragraph 7-6.a., states “[c]ivilian special agents are
                 required to provide Article 31(b)/Tempia warnings when they conduct interviews
                 and interrogations of persons suspected of a crime who are subject to the UCMJ. . . .”

                 AFOSI policy does not address legal requirements for investigators when victims
                 make incriminating statements of collateral misconduct. AFOSI policy defers
                 to commanders, who in accordance with, Air Force Instruction (AFI) 36-6001,
                 “Sexual Assault Prevention and Response (SAPR) Program,” September 29, 2008,
                 Incorporating Change 1, September 30, 2009, Certified Current October 14, 2010,
                 paragraph 6.3.3, “have the authority to determine the appropriate disposition of
                 alleged victim misconduct, to include deferring disciplinary action until after
                 disposition of the sexual assault case.” Specifically,

                             When considering what corrective actions may be appropriate,
                             commanders must balance the objectives of holding members
                             accountable for their own misconduct with the intent to avoid
                             unnecessary additional trauma to sexual assault victims and the
                             goal of encouraging reporting of sexual assaults.


                 MCIO Policies on Investigative Techniques
                 Some MCIO policies describe investigative techniques and actions that were not
                 identified in DoD policies, CIGIE QSIs, IACP actions, or within another MCIO’s
                 policies. This practical, and sometimes extensive, guidance could greatly enhance
                 an investigator’s understanding of investigative techniques. We are providing the
                 following techniques for consideration by the sister MCIOs.




12 │ DODIG-2014-108
                                                                                                                                        Observation



CID Pamphlet 195-10, “Crime Scene Handbook,” June 30, 1999, makes 11 suggestions
for conducting the sexual assault forensic examination in paragraph 4.8. We identified
that three of the suggestions relate to the sexual assault forensic examination (SAFE).
The following three suggestions could be shared across the MCIOs:

               •	 Ask the doctor to microscopically examine the victim for motile sperm.

               •	 Ask the doctor to scan victim’s body with an ultraviolet (UV) lamp to look
                   for seminal fluid and fibers.8

               •	 Consider attempting to develop latent fingerprint impressions on the
                   skin if appropriate.9

CIDR 195-1 also contains these prosecutor-related actions.

               •	 Paragraph 5.21.(7) states that Judge Advocate (JA) personnel are “invited
                   to attend case review and/or investigative meetings on high profile or
                   significant . . . investigations on a monthly basis” and “will be requested
                   to conduct an AAR [After Action Review] of all prosecuted investigations
                   to assist CID in identifying strengths and weaknesses in investigations.”

               •	 Paragraph 5.21.a. (3) states that “[i]nvestigative plan[s] (IP) on SSI [Serious
                   or Sensitive Incident] investigations, and other cases deemed appropriate
                   by the SAC [Special Agent in Charge]” are discussed with legal
                   personnel to identify any potential “additional investigative activity.”

NCIS guidance in the Sexual Assault Investigative Protocol Checklist, section 10,
“Sexual Assault Collection Kit on Subject,” which is referred to in NCIS 3, chapter  34,
paragraph 34-4.4.a., as “investigative protocols,” also addresses the SAFE by
instructing investigators to “[d]ocument what type of equipment was used during
the exam and if the toluidine blue test can be conducted.”10

The U.S. Air Force and AFOSI policy guidance provide the following direction
for legal coordination at the onset of an investigation, during, and at the conclusion
of an investigation.

               •	 “Within 30 days of the conclusion of any significant case whether
                   disposed of by trial or otherwise, the local SJA [Staff Judge Advocate]
                   and available members of the trial team will conduct a ‘hot wash’ [after

	8	
       Also cited in CID Pamphlet 195-12, “Sexual Assault Investigation Handbook,” April 23, 2013.
	 9	
       See previous footnote.
	10	
       “A National Protocol for Sexual Assault Medical Forensic Examinations - Adults/Adolescents, Second Edition,” April 2013,
       page 98, states that “toluidine blue dye may be used to highlight trauma, either with or without the use of a colposcope.”




                                                                                                                                    DODIG-2014-108 │ 13
Observation



                                    action discussion] with the AFOSI field unit commander or SAIC
                                    [Special Agent-in-Charge] and case agent to review case lessons
                                    learned” (AFI 71-101, Volume 1, “Criminal Investigations Program,”
                                    April 8, 2011, paragraph 2.9.3,).

                                •	 “Prior to any Subject interview, the local servicing SJA will be notified
                                    of the intended Subject interview” (AFOSIMAN 71-118, Volume 4,
                                    “General Investigative Methods,” April 30, 2009, Certified Current
                                    April 5, 2012, Incorporating Changes Through Change 4, March 1, 2013,
                                    paragraph 4.6).

                                •	 “AFOSI and U.S. Air Force Judge Advocate [personnel] must develop a
                                    collaborative relationship focused on integrating investigative efforts
                                    and the legal process” (AFOSIMAN 71-121, “Processing and Reporting
                                    Investigative Matters,” January 13, 2009, Incorporating All Changes
                                    through Change 5, October 12, 2012, paragraph 1.5).

                 AFOSIMAN 71-118 provides a detailed description of mail covers11 in chapter 7 and
                 trash pulls12 in chapter 8. These investigative techniques can help develop
                 potential evidence and/or information regarding the offender(s) (subject(s)) in a
                 sexual assault investigation. Both investigative techniques can provide relevant
                 information that may aid in not only the identification and/or prosecution of
                 subjects/suspects, but in the identification of potential witnesses and/or additional
                 victims in a sexual assault investigation.


                 Conclusions
                 MCIO Policy Alignment with DoD, Service, CIGIE QSI, and IACP
                 Investigative Actions
                 The MCIOs’ adult sexual assault investigation policies and procedures support
                 each agency’s needs for a thorough sexual assault investigation. The MCIOs
                 have incorporated nearly all DoD and Service adult sexual assault investigative
                 requirements into their policies. Although not mandated by DoD, the MCIOs have
                 also incorporated, directly or indirectly, the pertinent CIGIE QSIs relating to
                 conducting criminal investigations, including sexual assault, and those that facilitate
                 a thorough and well-written report of investigation. The MCIOs address almost
                 all of the pertinent IACP investigative actions in their policies.


                 	11	
                        The Manual states, “Mail covers are used to record data from outside covers of sealed mail or inside contents of unsealed
                        mail within the United States Postal Service (USPS) channels.”
                 	12	
                        The Manual states, “A trash pull is an investigative activity for collection of materials and refuse discarded by Subjects.”



14 │ DODIG-2014-108
                                                                                        Observation



Subject Matter Experts
AFOSIMAN 71-122, volume 1, paragraph 4.3.1, requires coordination with a forensic
sciences agent at the onset of a sexual assault investigation. Neither CID nor NCIS
requires this coordination at the onset of a sexual assault investigation. We brought
this issue to the attention of the DoD OIG Policy and Programs Division for
consideration of DoD-level policy implementation or update.


Victim Cooperation Decision
To achieve the dual objectives of victim support and offender accountability,
DoDD 6495.01, paragraph 4.k.(2)(b), states:

           DoD preference is for complete Unrestricted Reporting of sexual
           assaults to allow for the provision of victims’ services and to
           pursue accountability. However, Unrestricted Reporting may
           represent a barrier for victims to access services, when the victim
           desires no command or law enforcement involvement. Consequently,
           the DoD recognizes a fundamental need to provide a confidential
           disclosure vehicle via the Restricted Reporting option.


DoD policy guidance of relying on the use of a form to require a victim to
document an immediate or early investigation or prosecution decision contradicts
IACP protocol opposing the timing and the use of such forms. However, it is justified
because the victim is assisted in the completion of the form by a trained response
coordinator and not an MCIO investigator. Additionally, we do not oppose NCIS’
use of the victim preference statement in those instances when victims are not
eligible for Restricted Reporting but do not wish to participate in the criminal
investigation. Further, in those instances when victims do not wish to participate,
NCIS guidance requires agents to explain to a victim the possible consequences
of not cooperating. The implication that the victim’s decision not to cooperate may
result in the subject assaulting other victims could be perceived as victim blaming.


Collateral Misconduct
The CID addresses collateral misconduct in its policy guidance. However, neither NCIS
nor AFOSI policy guidance address how investigators should proceed if a military
sexual assault victim provides incriminating information about a collateral offense.
Article 31(b), UCMJ, is clear that rights warnings are required before asking
incriminating questions. Nonetheless, we brought this issue to the attention of
the DoD OIG Policy and Programs Division for consideration of DoD-level policy
implementation or update.




                                                                                    DODIG-2014-108 │ 15
Observation



                 Management Comments on the Report and
                 Our Response
                 CID Comments
                 CID expressed concerns with the efficacy of the report, stating the DoD OIG did not
                 meet CIGIE standards in regards to the timeliness and accuracy of the report.
                 They asserted “the report not only failed to meet the timely standard (26 months
                 to provide a draft for comment). . . it also failed to meet the accuracy standard.”


                 Our Response
                 In response to the concerns expressed by CID, the DoD IG Office of Audit Policy
                 and Oversight reviewed this final report and associated evidence for factual data
                 accuracy, fairness, and objectivity for compliance with the CIGIE Inspection and
                 Evaluation reporting standards. (See Appendix M for details). We revised the report
                 as appropriate to ensure data accuracy, relevance, and objectivity.


                 NCIS Comments
                 NCIS expressed concern that our report contained a recommendation by IACP
                 regarding the videotaping of victim interviews. NCIS indicated that its dialogue with
                 IACP was contrary to the information in the draft report.


                 Our Response
                 Our draft report cited IACP as an advocate of videotaping victim interviews.
                 However, after further discussions with the IACP representatives, we have removed
                 this topic from our report. The IACP representatives stated that the IACP currently
                 takes a more neutral view of videotaping victim interviews.


                 AFOSI Comments
                 AFOSI expressed concern regarding one DoD requirement identified as being absent
                 from its policy. Specifically, the requirement mandates a multidisciplinary approach
                 during a sexual assault investigation as outlined in DoDD 1030.01, “Victim and
                 Witness Assistance,” April 23, 2007. AFOSI advised that this requirement is clearly
                 contained in AFOSIMAN 71-122, volume 1.


                 Our Response
                 We verified AFOSI’s assertion that its policy addresses this requirement and amended
                 the report to reflect this compliance.



16 │ DODIG-2014-108
                                                                                                 Observation



AFOSI Comments
AFOSI expressed concern about the DoD requirement that mandates law
enforcement to inform victims and witnesses of various stages of an investigation.
AFOSI stated that they keep victims informed; however, they do so through the
victim’s chain of command, rather than with the victim directly.


Our Response
During subsequent discussions with AFOSI, AFOSI agreed to evaluate the impact of
clarifying its policy to provide monthly updates to the victim’s chain of command.


AFOSI Comments
AFOSI stated that all of the identified CIGIE standards within this report are
incorporated into its policy and/or training.


Our Response
During the reevaluation of CIGIE actions and MCIO guidance, we reduced our list of
CIGIE investigative actions from 51 to 31 and removed those which we deemed
inherent to an investigator based on training and experience. AFOSI’s policies align
with the 31 QSI standards.


Recommendations, Management Comments, and
Our Response
Revised and Redirected Recommendations
As a result of management comments and additional evaluation of MCIO guidance
and policies, we reduced the number of IACP actions evaluated from 165 to
92 investigative actions related to the MCIOs and deleted the portion of this
recommendation related to evaluating the Council of Inspectors General on Integrity
and Efficiency Quality Standards for Investigation.

In addition, as a result of management comments and additional evaluation of
MCIO    guidance      and   policies,   we   redirected      Recommendation   3     from   the
Commander,     U.S.    Army     Criminal     Investigation    Command,   to   the    Director,
Naval Criminal Investigative Service, and the Commander, Air Force Office of
Special Investigations.




                                                                                             DODIG-2014-108 │ 17
Observation



                 Recommendation 1. International Association of Chiefs of
                 Police Actions
                 We recommend that the Director and Commanders of the Military Criminal
                 Investigative Organizations evaluate the International Association of Chiefs
                 of Police actions identified as not currently aligned in Military Criminal
                 Investigative Organization policy for their relevance and applicability and consider
                 incorporating them into their adult sexual assault investigation policy guidance.


                 CID Comments
                 CID considered IACP actions and incorporated them as appropriate into existing
                 CID policy and training.


                 NCIS Comments
                 NCIS has and will continue to evaluate DoD and Service sexual assault policies for
                 inclusion in NCIS policy and commented that NCIS has an active and well-established
                 relationship with the IACP.


                 AFOSI Comments
                 AFOSI agreed and supports IACP Model Policy and Investigative Strategies. AFOSI
                 will continue to ensure IACP model policy and investigative strategies are integrated
                 into its policy and training.


                 Our Response
                 The MCIO’s comments are responsive. No additional comments are required.


                 Recommendation 2. Collateral Misconduct
                 We recommend that the Director, Naval Criminal Investigative Service, and the
                 Commander, Air Force Office of Special Investigations, evaluate their procedures
                 addressing actions to be taken relating to victim collateral misconduct in a sexual
                 assault investigation.


                 NCIS Comments
                 NCIS stated that its policy is aligned with the Department of Navy principles, which
                 focus on a balanced military justice process.




18 │ DODIG-2014-108
                                                                                               Observation



AFOSI Comments
AFOSI advised they have evaluated CID’s policy pertaining to collateral misconduct
and are considering integrating guidance similar to CID’s into its policy.


Our Response
NCIS and AFOSI comments are responsive. No further comments are required.


Recommendation 3. Alignment with DoD and Service Policies
We recommend that the Director, Naval Criminal Investigative Service, and the
Commander, Air Force Office of Special Investigations, evaluate the benefits
and efficiencies of including DoD and Service sexual assault investigative policy in
Military Criminal Investigative Organization policies.


NCIS Comments
NCIS evaluated the identified DoD and Service investigative requirements as
recommended and commented that they evaluated and will continue to evaluate
DoD and Service sexual assault policies for inclusion in NCIS policy.


AFOSI Comments
AFOSI   evaluated    the   identified   DoD    and   Service    investigative   actions   as
recommended and emphasized the need for the DoD OIG to consider its training
curriculum, both the 18-week basic criminal investigation course and advanced
training programs, as a source when evaluating its policies and procedures.


Our Response
NCIS and AFOSI comments are responsive. We reevaluated NCIS and AFOSI policy
guidance used to develop their adult sexual assault investigation training curriculum
and lesson plans. No further comments are required.




                                                                                           DODIG-2014-108 │ 19
Observation



                 Recommendation 4. Victim Cooperation Decision
                 We recommend that the Director, Naval Criminal Investigative Service, evaluate the
                 policy verbiage related to the discussion of the victim preference statement with the
                 victim, specifically, the language used to demonstrate a possible consequence of a
                 victim’s decision not to cooperate, to eliminate implied victim blaming.


                 NCIS Comments
                 NCIS agreed with our recommendation and plans to update its policy.


                 Our Response
                 NCIS comments are responsive. No further comments are required.




20 │ DODIG-2014-108
                                                                                           Appendixes




Appendix A
Scope and Methodology
We announced the “Review of Department of Defense Sexual Assault Investigations,” on
November 10, 2011. The overall objective of the project was to evaluate the adequacy
of the Department’s sexual assault investigations with adult victims. The objectives
of the project were to determine:

         •	 whether MCIOs’ adult sexual assault investigative procedures comply
           with DoD and Military Service guidance, constituent community adult
           sexual assault investigation techniques, and CIGIE Quality Standards for
           Investigations, and

         •	 whether MCIOs adequately investigated adult sexual assaults as required
           by the standards.”

Due to their complexity, we decided to evaluate and report each objective
separately to facilitate the reporting of each in a timely manner. Additionally, the
standards used for completion of the second objective, included DoD, Military Service,
and MCIO policy requirements and did not include constituent community adult
sexual assault investigation techniques and CIGIE QSIs. The work related to the
primary (second) objective was separately reported as “Evaluation of Military Criminal
Investigative Organization Sexual Assault Investigations,” Report No. DODIG-2013-091,
July 9, 2013, which documents the results of our evaluation of MCIO adult sexual
assault investigations closed in 2010.

We performed this evaluation from November 2011 through June 2014, in accordance
with CIGIE “Quality Standards for Inspection and Evaluation” January  2012
version. However, work on this project was at times held in abeyance due to the
priority given to completing the evaluation of the MCIO’s adult sexual assault
investigations. The CIGIE Quality Standards for Inspection and Evaluation specify that
“[t]ime frames should be flexible in response to changing priorities,” and “are subject
to change due to unforeseen circumstances, such as the need to expand the scope of an
inspection or the need to add additional objectives.” Additionally, the congressional,
national media, and public interest in military sexual assault, resulting in new
legislation, required numerous changes in investigative policies at various levels.




                                                                                      DODIG-2014-108 │ 21
Appendixes



                 In order to identify law enforcement adult sexual assault investigation techniques,
                 we looked at numerous investigative protocols from multiple sources to include
                 SART protocols from California, Illinois, and Virginia. Because no single policy can
                 satisfy every unique law enforcement agency’s needs, we sought a wide range of
                 basic investigative actions that would generally be expected in a sexual assault
                 investigation. The IACP published the IACP “Investigating Sexual Assaults Model
                 Policy,” May 2005, and the IACP issued the “Sexual Assault Incident Reports
                 Investigative Strategies,” December 2008.

                 For each of the actions identified within DoD and Service issuances, CIGIE QSIs and
                 IACP “Model Policy” and “Investigative Strategies” documents, we evaluated
                 MCIO guidance documents to determine the extent to which they addressed these
                 requirements and actions. If guidance was identified, it was extracted and added to the
                 MCIO spreadsheet under a column for that guidance document. Then we determined
                 whether the extract could be enhanced or improved to give investigators a better
                 understanding of the action. The spreadsheet cells were color-coded based on our
                 analysis as follows:      Green – MCIO policy guidance addressed IACP action
                 sufficiently in that the policy meets the intent of the investigative action; Blue – MCIO
                 policy could be enhanced; and Yellow – IACP investigative action is not addressed
                 within MCIO guidance.

                 We issued our draft report on January 16, 2014, and solicited MCIO management
                 comments. CID reported that it revised CIDR 195-1 and published CID Pamphlet 195‑12.
                 We reevaluated how all investigative actions were affected by these two new CID
                 publications. We also asked NCIS and AFOSI for updated or new guidance documents,
                 incorporating them into our analysis. Based on management comments, we again
                 evaluated the applicability of CIGIE and IACP actions.

                 On June 25, 2014, we solicited current policy guidance from the MCIOs. Upon receipt
                 of current listings and policies from each of the MCIOs, we established June 26, 2014,
                 as the cut-off date of the policy evaluation. We evaluated the updated policies to
                 determine the impact on our evaluation and made adjustments as appropriate.




22 │ DODIG-2014-108
                                                                                         Appendixes



Prior Coverage
The GAO and DoD IG have issued three reports discussing topics related to sexual
assault investigations in the last 5 years. These unrestricted DoD OIG reports can be
accessed at http://www.dodig.mil/pubs/index.cfm.

GAO Report No. GAO-11-579, “Military Justice: Oversight and Better Collaboration
Needed for Sexual Assault and Adjudications,” June 2011

Report No. DODIG-2013-043, “Evaluation of the Military Criminal Investigative
Organizations’ Sexual Assault Investigation Training,” February 28, 2013

Report No. DODIG-2013-091, “Evaluation of the Military Criminal Investigative
Organizations’ Sexual Assault Investigations,” July 9, 2013




                                                                                    DODIG-2014-108 │ 23
Appendixes




                 Appendix B
                 References
                 Executive Order/Directive
                 None

                 Federal Law
                 Public Law 108-375, “Ronald W. Reagan National Defense Authorization Act for
                 Fiscal Year 2005,” October 28, 2004

                 DoD Issuances
                               •	 DoDD 6495.01, “Sexual Assault Prevention and Response (SAPR)
                                   Program,” January 23, 2012, Incorporating Change 1, April 30, 2013

                               •	 DoDD 5106.01, “Inspector General of the Department of Defense (IG DoD),”
                                   April 20, 2012

                               •	 DoDD 1030.01, “Victim and Witness Assistance,” April 13, 2004, certified
                                   current as of April 23, 2007

                               •	 DoDI 6495.02, “Sexual Assault Prevention and Response (SAPR) Program
                                   Procedures,” March 28, 2013, Incorporating Change 1, February 12, 2014

                               •	 DoDI 5505.18, “Investigation of Adult Sexual Assault in the Department
                                   of Defense,” January 25, 2013, Incorporating Change 1, May 1, 2013

                               •	 DoDI 5505.07, “Titling and Indexing Subjects of Criminal Investigations
                                   in the Department of Defense,” January 27, 2012

                               •	 DoDI        5505.03,        “Initiation        of    Investigations          by      Defense        Criminal
                                   Investigative Organizations,” March 24, 2011

                               •	 DoDI 5505.14, “Deoxyribonucleic Acid (DNA) Collection Requirements
                                   for Criminal Investigations,” May 27, 2010

                               •	 DoDI 1030.2, “Victim and Witness Assistance Procedures,” June 4, 2004

                               •	 “Report of The Defense Task Force on Sexual Assault in the Military
                                   Services,” December 2009

                 	*	
                       Publications identified with an asterisk (*) are not mentioned within the body of the report but were used to research the
                       observations in this report.




24 │ DODIG-2014-108
                                                                                                                                        Appendixes



Service Issuances
              •	 AR 195-2, “Criminal Investigation Activities,” June 9, 2014

              •	 AR 195-5, “Evidence Procedures,” February 22, 2013

              •	 AR 600-20, “Army Command Policy,” March 18, 2008, Rapid Action
                  Revision Issue Date September 20, 2012

              •	 AR 27-10, “Military Justice,” October 3, 2011

              •	 AR 190-45, “Law Enforcement Reporting,” March 30, 2007*

              •	 Army Techniques Publication 3-39.13, “Law Enforcement Investigations,”
                  August 19, 2013*

              •	 OPNAVINST 1752.1B, “Sexual Assault Victim Intervention (SAVI)
                  Program,” December 29, 2006*

              •	 SECNAVINST 1752.4B, “Sexual Assault Prevention and Response,”
                  August 8, 2013

              •	 SECNAVINST             5430.108,         “Department            of    the     Navy       Sexual       Assault
                  Prevention and Response Office,” June 10, 2010

              •	 SECNAVINST 5430.107, “Mission and Functions of the Naval Criminal
                  Investigative Service,” December 28, 2005*

              •	 SECNAVINST 5800.14A, “Notice of Release of Military Offenders
                  Convicted of Sex Offenses or Crimes Against Minors,” May 24, 2005

              •	 Air Force Mission Directive 39, “Air Force Office of Special Investigations,”
                  July 6, 2011

              •	 Air Force Policy Directive (AFPD) 36-60, “Sexual Assault Prevention
                  and Response (SAPR) Program,” March 28, 2008, Certified Current
                  April 14, 2011

              •	 AFPD          71-1,        “Criminal          Investigations           and        Counterintelligence,”
                  January 6, 2010, Incorporating Through Change 2, September 30, 2011

              •	 AFI 71-101, Volume 1, “Criminal Investigations Program,” April 8, 2011,
                  Incorporating Change 1, May 16, 2013

	*	
      Publications identified with an asterisk (*) are not mentioned within the body of the report but were used to research the
      observations in this report.




                                                                                                                                   DODIG-2014-108 │ 25
Appendixes



                               •	 AFI 51-201, “Administration of Military Justice,” June 6, 2013

                               •	 AFI 36-6001, “Sexual Assault Prevention and Response Program,”
                                   September 29, 2008, Incorporating Change 1, September 30, 2009,
                                   Certified Current October 14, 2010

                 MCIO Issuances
                               •	 CID Pamphlet 195-12, “Sexual Assault Investigation Handbook,”
                                   May 27, 2014

                               •	 CID Regulation 195-1, “Criminal Investigation Operational Procedures,”
                                   April 22, 2014

                               •	 CID Pamphlet 195-10, “Crime Scene Handbook,” June 30, 1999

                               •	 NCIS Manual for Investigations, NCIS 3, chapter 7, “Rights Warnings and
                                   Self-Incrimination,” March 2013

                               •	 NCIS Manual for Administration, NCIS 1, chapter 45, “Managing Investigations
                                   and Operations,” October 2010*

                               •	 NCIS Manual for Administration, NCIS 1, chapter 25, “SSD Report Writing,”
                                   January 2010*

                               •	 NCIS Manual for Investigations, NCIS 3, chapter 12, “Physical Evidence and
                                   the Crime Scene,” December 2007

                               •	 NCIS Manual for Administration, NCIS 1, chapter 28, “Case Control System,”
                                   September 2007*

                               •	 NCIS Manual for Investigations, NCIS 3, chapter 34, “Sex Offenses,”
                                   September 2007

                               •	 NCIS Manual for Investigations, NCIS 3, chapter 14, “Interviews and
                                   Interrogations,” August 2007

                               •	 NCIS Manual for Investigations, NCIS 3, chapter 6, “Investigative Theory
                                   and Procedures,” December 2006

                               •	 NCIS Manual for Fraud Investigations, NCIS 6, chapter 14, “Department
                                   of Defense Inspector General Subpoena,” undated*


                 	*	
                       Publications identified with an asterisk (*) are not mentioned within the body of the report but were used to research the
                       observations in this report.




26 │ DODIG-2014-108
                                                                                                                                        Appendixes



              •	 NCIS Crime Scene Investigation Field Manual, May 2012*

              •	 NCIS Sexual Assault Investigative Protocol Checklist, undated

              •	 AFOSI Instruction 35-101, “Public Affairs Policies and Procedures,”
                  January 7, 2014*

              •	 AFOSI Instruction 36-2901, “Standards of Professional Conduct for AFOSI
                  Personnel,” September 10, 2008

              •	 AFOSIMAN 71-103, Volume 3, “Technical Services,” June 5, 2012,
                  Incorporating Change 1, September 20, 2013*

              •	 AFOSIMAN 71-122, Volume 1, “Criminal Investigations,” September 28, 2012,
                  Incorporating All Changes Through Change 2, August 14, 2013

              •	 AFOSIMAN 71-118, Volume 4, “General Investigative Methods,” April 30, 2009,
                  certified current April 5, 2012, Incorporating All Changes Through
                  Change 4, (IC-4, March 1, 2013)

              •	 AFOSIMAN 71-121, “Processing and Reporting Investigative Matters,”
                  January 13, 2009, Incorporating All Changes through Change 5
                  (October 12, 2012)

              •	 AFOSIMAN             71-103,        Volume         1,     “Air     Force       Polygraph         Program,”
                  August 17, 2012*

              •	 AFOSIMAN 71-103, Volume 2, “Forensic Sciences,” August 17, 2011*

              •	 AFOSIMAN 71-124, “Crime Scene Manual,” September 30, 2003*

              •	 AFOSI Handbook 71-105, “An Agent’s Guide to Conducting and Documenting
                  Investigations,” March 9, 2009, certified current April 11, 2012*

              •	 AFOSI Lesson Plan 01-12-09-01-11-01, “Sexual Assault Investigations,”
                  January 10, 2011*

              •	 AFOSI Advanced General Criminal Investigation Course presentation,
                  “Sexual Assault Investigations,” undated*

              •	 AFOSI         Presentation,            “Psychological            Aspects        of     Sexual        Assault
                  Victims,” undated*


	*	
      Publications identified with an asterisk (*) are not mentioned within the body of the report but were used to research the
      observations in this report.




                                                                                                                                   DODIG-2014-108 │ 27
Appendixes



                 Supplemental Guidance
                               •	 Council of Inspectors General on Integrity and Efficiency (formerly
                                   President’s Council on Integrity and Efficiency - Executive Council on
                                   Integrity and Efficiency), “Quality Standards for Investigations,”
                                   November 15, 2011

                               •	 GAO Report No. GAO-11-579, “Military Justice: Oversight and Better
                                   Collaboration Needed for Sexual Assault and Adjudications,” June 2011

                               •	 Army Medical Command Regulation 40-36, “Medical Facility Management
                                   of Sexual Assault,” January 21, 2009

                               •	 Bureau of Medicine Instruction 6310.11A, “Sexual Assault Prevention
                                   and Response Medical-Forensic Program,” May 2, 2013*

                               •	 International Association of Chiefs of Police, “IACP Sexual Assault
                                   Incident Reports: Investigative Strategies,” December 2008

                               •	 International Association of Chiefs of Police, “IACP Investigating Sexual
                                   Assaults Model Policy,” May 2005




                 	*	
                       Publications identified with an asterisk (*) are not mentioned within the body of the report but were used to research the
                       observations in this report.




28 │ DODIG-2014-108
                                                                                                      Appendixes




Appendix C
Comparison of DoD-Mandated Requirements
Across MCIOs
Table C-1 depicts 14 requirements mandated in DoD issuances and the degree to
which the MCIOs address each requirement in their internal guidance.

Legend:
 MCIO guidance addresses the DoD requirement.                                             G
 MCIO should consider enhancing its guidance to better address DoD requirement.           B
 MCIO should consider adding DoD requirements to their guidance.                          Y


Table C-1. MCIO Guidance Alignment with DoD Requirements
 Mandated    DoD Issuance                DoD Requirements                   CID   NCIS   AFOSI
  Action
     1       DoDD 1030.01    4.4 Law enforcement and legal
                             personnel directly engaged in the
                             detection, investigation, or prosecution       G      G      G
                             of crimes shall ensure that victims are
                             accorded their rights.
     2       DoDD 1030.01    4.4.1 [A] crime victim has the right to:
                             [b]e treated with fairness and respect for     G      G      G
                             the victim’s dignity and privacy.
     3       DoDD 1030.01    5.3.4 Ensure that a multidisciplinary
                             approach is followed by victim and
                             witness service providers, including           G      G      G
                             law enforcement personnel, [and]
                             criminal investigators. . . .
     4       DoDD 5106.01    5.f. The DoDIG shall [c]onsider requests
                             from DoD Components for the issuance
                             of Subpoenas Duces Tecum seeking
                             information from sources outside the
                             Federal Government and Subpoenas
                             Ad Testificandum seeking testimony
                             from individuals not currently employed
                             by the Federal Government or on                G      G      G
                             active military duty, necessary for the
                             performance of duties assigned by
                             Reference (c [Inspector General Act of
                             1978, as amended, title 5, United States
                             Code, Appendix]). [Because the DoD
                             OIG shall consider requests from DoD
                             Components, we expect the MCIOs to
                             have related guidance.]
     5       DoDI 1030.2     6.1. At the earliest opportunity after
                             identification of a crime victim or
                             witness, the local responsible official,
                             law enforcement officer, or criminal           G      G      G
                             investigation officer shall provide. . . the
                             DD Form 2701, ‘Initial Information for
                             Victims and Witnesses of Crime, . . . .’



                                                                                                 DODIG-2014-108 │ 29
Appendixes



                 Table C-1. MCIO Guidance Alignment with DoD Requirements (cont’d)

                      Mandated   DoD Issuance              DoD Requirements                   CID   NCIS   AFOSI
                       Action
                         6       DoDI 1030.2    6.2 If the victim or witness has not
                                                already received the DD Form 2701
                                                from law enforcement officials, it shall
                                                be used by investigators as a handout
                                                to convey basic information and points
                                                of contact. The date it is given to the       G      G      G
                                                victim or witness is reportable and shall
                                                be recorded on the appropriate form
                                                authorized for use by the particular
                                                Service. This serves as evidence that the
                                                officer notified the victim or witness of
                                                his or her statutory rights.
                         7       DoDI 1030.2    6.2., and 6.2.1 through 6.2.3. Law
                                                enforcement investigators and criminal
                                                investigators shall inform all victims and
                                                witnesses, as appropriate, of [t]he status
                                                of the investigation of the crime, to the     G      G      B
                                                extent providing such information does
                                                not interfere with the investigation. . .
                                                [t]he arrest of the suspected offender
                                                [, and]. . . [a] decision not to pursue
                                                further investigation.
                         8       DoDI 5505.03   1. [T]his Instruction. . . establishes
                                                policy and updates responsibilities and
                                                procedures under reference (b [DoD
                                                Directive 5106.1, “Inspector General of
                                                the Department of Defense”]) to ensure
                                                the independence, objectivity, and            G      G      G
                                                effectiveness of the Defense Criminal
                                                Investigative Organizations (DCIOs).
                                                [We evaluated whether MCIOs’ guidance
                                                reflected their intent to be independent,
                                                objective, and effective.]
                         9       DoDI 5505.07   4.a. [O]rganizations that conduct criminal
                                                investigations shall place the names and
                                                identifying information of people under       G      G      G
                                                criminal investigations in the title blocks
                                                of investigative reports.
                         10      DoDI 5505.07   4.d. If a subject’s identifying information
                                                requires removal or correction. . .           G      G      G
                                                investigating organizations shall remove
                                                such information as soon as possible.
                         11      DoDI 5505.18   Encl. 2, 1. The MCIO investigator assigned
                                                to an adult sexual assault investigation
                                                will ensure a Sexual Assault Response         G      G      G
                                                Coordinator (SARC) has been notified as
                                                soon as possible. . . .
                         12      DoDI 5505.18   Encl. 2, 8. MCIOs must include the DD
                                                Form 2911, “DoD Sexual Assault Forensic
                                                Examination Report,” or reports from
                                                civilian sexual assault forensic exams        G      G      G
                                                conducted at civilian healthcare facilities
                                                (when DoD retains jurisdiction) as part of
                                                the archived file.




30 │ DODIG-2014-108
                                                                                                  Appendixes



Table C-1. MCIO Guidance Alignment with DoD Requirements (cont’d)

 Mandated   DoD Issuance              DoD Requirements                  CID   NCIS   AFOSI
  Action
    13      DoDI 5505.18   Encl. 2, 11. Pursuant to section 581
                           of Reference (o [“National Defense
                           Authorization Act for Fiscal Year 2012,”
                           December 31, 2011]), the MCIO
                           investigator assigned to conduct an
                           adult sexual assault investigation
                           must inform the victim of a sexual           B      G      B
                           assault. . . of the availability of legal
                           assistance and the services of a SARC or a
                           [Sexual Assault Prevention and Response
                           Victim Advocate]. The [victim] must also
                           be informed that the legal assistance and
                           the services of a SARC or a SAPR VA are
                           optional and may be declined.
    14      DoDI 6495.02   Encl. 9, 1.c.: MCIO, DoD law
                           enforcement, and the legal
                           representative or SJA shall provide
                           case disposition; and 2.e.: For each
                           victim, each CMG [Case Management            G      G      B
                           Group] member who is involved with
                           and working on a specific case will
                           provide an oral update without violating
                           victim confidentiality or disclosing
                           privileged communications.




                                                                                             DODIG-2014-108 │ 31
Appendixes




                 Appendix D
                 Comparison of Service-Mandated Requirements
                 by MCIO
                 Legend:
                      MCIO addresses the Service requirement.                                                       G
                      MCIO should consider enhancing its guidance to better address Service requirement.            B
                      MCIO should consider adding Service requirements to their guidance.                           Y


                 Table D-1 depicts 24 Army Service requirements and the degree to which CID
                 addresses those requirements.

                 Table D-1. Army Service Requirements
                              Guidance                                 Requirement                                 CID
                       1     AR 600-20     8-2c. The Army will treat all victims of sexual assault with dignity,   G
                                           fairness, and respect.
                       2     AR 600-20     8-5d(3) Establish procedures in CID regulations that support the
                                           role of the SARC and provide status reports to the SARC on the
                                           investigative activity and other pertinent details to the extent that   G
                                           it will not jeopardize an ongoing investigation or the rights of a
                                           potential subject of an ongoing investigation.
                       3     AR 600-20     8-5d(4) Ensure that the Office of the Staff Judge Advocate is           G
                                           notified when a sexual assault occurs within Army jurisdiction.
                       4     AR 600-20     8-5d(6) Ensure that victims and witnesses are notified of their
                                           rights through a completed DD Form 2701 (Initial Information
                                           for Victims and Witnesses of Crime). Ensure that the victim and
                                           witness are informed of the status of the investigative activity,       G
                                           according to the procedures established by the SARC and to
                                           the extent that such actions will not jeopardize an ongoing
                                           investigation and the availability of services.
                       5     AR 600-20     8-5d(7) Ensure that disposition reports by battalion commanders
                                           or first lieutenant colonel in the chain of command, DA Form 4833
                                           (Commander’s Report of Disciplinary or Administrative                   G
                                           Action), are entered into the Army Criminal Investigation and
                                           Intelligence System and reported to the Director, U.S. Army Crime
                                           Records Center.
                       6     AR 600-20     8-5d(8) Support the submission of sexual assault data into              G
                                           SADMS [Sexual Assault Data Management System].
                       7     AR 600-20     8-5d(10) Provide a representative with appropriate experience
                                           and level of expertise to serve on the Sexual Assault Review            G
                                           Board (SARB) (see Appendix F [of AR 600-20] for a detailed
                                           description of the SARB).
                       8     AR 600-20     8-5d(11) Establish procedures for implementing the provisions
                                           of confidentiality as defined in Appendix H [of Army Regulation         G
                                           [AR] 600-20].




32 │ DODIG-2014-108
                                                                                                        Appendixes



Table D-1. Army Service Requirements (cont’d)

         Guidance                               Requirement                                  CID
   9    AR 600-20   8-5d(12) Immediately notify the SARC or the on-call IVA
                    [Installation Victim Advocate], if after normal duty hours, of all       G
                    incidents of sexual assault.
  10    AR 27-10    5–13. Reports and investigation of offenses. a. Any military
                    authority, including a military law enforcement agency, that
                    receives a report of a serious offense, will advise the trial counsel
                    at the initiation of and critical stages in, the investigation. The      G
                    commanding general [sic], U.S. Army Criminal Investigation
                    Command (USACIDC) may approve exceptions to this requirement
                    on a case-by-case basis.
  11    AR 27-10    5-13a. Trial counsel will confer regularly about all developing cases
                    with local Criminal Investigation Command (CID) and military
                    police (MP) personnel. Trial counsel should work closely with            G
                    and provide legal advice to investigative entities throughout the
                    investigative process.
  12    AR 27-10    17-19b. Victim/witness protection. In cases where the life, well-
                    being, or safety of a victim or witness is jeopardized by his or her
                    participation in the criminal investigation or prosecution process,
                    the SJA [Staff Judge Advocate] will ensure that appropriate law          G
                    enforcement agencies are immediately notified. . . . The SJA
                    should contact USACIDC for all victim and witness requests to be
                    in the Federal Witness Protection program and for fear of
                    life transfers.
  13    AR 195-2    1–5. Objectives. The operational procedures of each Army
                    USACIDC element will be directed toward attaining the following
                    objectives: a. Ensuring known or suspected serious crimes and            G
                    crimes which may result in damaging the public confidence in
                    the Army are thoroughly and impartially investigated by USACIDC
                    special agents.
  14    AR 195-2    1-5c. Informing promptly appropriate authorities of facts
                    uncovered during criminal investigations and crime prevention            G
                    activities by preparing and submitting required reports in
                    accordance with applicable directives.
  15    AR 195-2    1-6. Policies. . . b. Serious crimes and incidents, in accordance with
                    this regulation, will be reported to, and investigated by, USACIDC
                    personnel. Commanders will immediately report all incidents
                    or allegations of sexual assault to USACIDC. The commander
                    of the appropriate USACIDC activity will direct the initiation of        G
                    an investigation immediately upon receipt of information that
                    a criminal incident falling within the investigative purview of
                    USACIDC has occurred or is suspected. Once initiated, a criminal
                    investigation will continue until completion.
  16    AR 195-2    1-7. e. The USACIDC will determine appropriate investigative
                    action in accordance with this regulation for all criminal incidents     G
                    or allegations reported to it or developed through its own sources.
                    Reports will be prepared reflecting the results.
  17    AR 195-2    1-7f. The USACIDC element receiving reports of criminal incidents
                    or allegations from other than the installation LE will notify the
                    appropriate installation PM/DES [Provost Marshal/Director of             G
                    Emergency Services] of the incident, unless such notification will
                    compromise the investigation in accordance with this regulation.




                                                                                                   DODIG-2014-108 │ 33
Appendixes



                 Table D-1. Army Service Requirements (cont’d)

                           Guidance                              Requirement                                  CID
                      18   AR 195-5   1–1. This regulation provides standards for receiving, processing,
                                      safeguarding, and disposing of physical evidence acquired by
                                      special agents, investigative assistants and evidence custodians
                                      of the U.S. Army Criminal Investigation Command (USACIDC),              G
                                      Military Police (MP), and Department of the Army (DA) employees
                                      and contractor personnel who are assigned to civilian police or
                                      security guard positions involving the enforcement of law and
                                      security duties on Army installations or activities.
                      19   AR 195-5   1.1. This regulation is for the internal management, control,
                                      and disposition of evidence of criminal misconduct, including
                                      unrestricted reporting cases of sexual assault. It also applies to
                                      the management, control, and disposition of evidence kits and
                                      any other property released to Provost Marshal (PM) activities
                                      in sexual assault cases involving restricted reporting. It does not     G
                                      confer rights upon criminal defendants in judicial, nonjudicial, or
                                      administrative proceedings. Failure to follow any provision of this
                                      regulation will not affect the admissibility of evidence at a court-
                                      martial unless the Military Rules of Evidence independently result
                                      in a ruling that the evidence is not admissible.
                      20   AR 195-5   2-9.o. Personal property that is not contraband, as determined
                                      by the trial counsel, will be released to the rightful owner.
                                      Coordination will be made with victims of violent or traumatic
                                      crimes immediately prior to returning certain property (such as
                                      the clothing items worn during a sexual assault), to determine          G
                                      whether the owner wants the property returned or wants
                                      the property destroyed to preclude added embarrassment or
                                      emotional turmoil.

                      21   AR 195-5   2-9.k. Items of evidence collected involving blood and other
                                      body fluids should be handled as outlined in paragraph 2–14.
                                      Potentially infectious materials (for example, clothing and bedding
                                      from a sexual assault investigation) will be placed in a properly
                                      marked biohazard container and returned to the owner. Prior             G
                                      to the evidence being returned to the owner, the owner will
                                      be contacted and apprised of the possible hazard. If the owner
                                      declines to accept the possibly contaminated property, the
                                      property will be destroyed and disposed of in an appropriate
                                      and safe manner.
                      22   AR 195-5   2–15. Procedures for restricted or unrestricted reporting. Military
                                      victims of sexual assault can elect either restricted or unrestricted
                                      reporting.                                                              G
                                         a. Unrestricted reporting requires normal law enforcement
                                             reporting, investigative, and evidence procedures.
                      23   AR 195-5   2-15.b. Restricted reporting requires that law enforcement and
                                      criminal investigative organizations not be informed of the victim’s    G
                                      identity and not initiate any investigative procedures.
                      24   AR 195-5   5–2. Sealing a. General.
                                      (3) When possible, evidence should be packaged and shipped
                                      compartmentalized by forensic discipline. For example, separate
                                      and ship sexual assault kits/whole blood under separate
                                      registered mail from evidence that requires only latent print
                                      examinations. [Digital evidence must be separated from evidence         G
                                      requiring refrigeration. Compartmentalizing evidence facilitates
                                      the optimum storage and routing of the evidence, reduces
                                      unnecessary handling of items, and contributes to the
                                      thorough and timely examination of evidence by the appropriate
                                      forensic branches.]


34 │ DODIG-2014-108
                                                                                                      Appendixes



Table D-2 depicts 11 Navy Service requirements and the degree to which NCIS
addresses those requirements.

Table D-2. Navy Service Requirements
            Guidance                               Requirement                            NCIS
 1   SECNAVINST 1752.4B      4. Director, Naval Criminal Investigative Service (NCIS)
                             shall: a. Training. Ensure that all NCIS military and         G
                             civilian personnel receive SAPR training in accordance
                             with enclosure (10).
 2   SECNAVINST 1752.4B      4. Director, Naval Criminal Investigative Service (NCIS)
                             shall: b. Data Reporting. Collect all data according to
                             DoD annual reporting requirements, as explained in            Y
                             enclosure (12), and submit all data in coordination
                             with Service inputs from the Navy and Marine Corps.
 3   SECNAVINST 5800.14A     7.d. The Naval Criminal Investigative Service, upon
                             notification from a convening authority concerning
                             those military offenders adjudged at a general
                             or special courts-martial for whom sex offender
                             notification is required, shall:
                               (1) Ensure required notifications are made in
                                    order to be received within 10 days of the             G
                                    completion of:
                                      (a) Judicial proceedings for those offenders
                                           meeting conditions of paragraph 7c (3) (a)
                                           and (b)
                                      (b) Any post-trial action described in
                                           paragraph 7c(5).
 4   SECNAVINST 5800.14A     7.d.(2) Ensure enclosure (2) is used for making
                             required notifications.
                                                                                           G
                             [Notice of Release/Acknowledgement of Convicted Sex
                             Offender Registration Requirements]
 5   SECNAVINST 5800.14A     7.d.(3) Ensure written notice of an offender's return to
                             the community is provided to
                               (a) Officials outlined in paragraphs 7b (3) (a) , 7b (3)
                                    (b), and 7b (3) (c) for offenders returning to a
                                                                                           G
                                    destination inside the United States.
                               (b) Officials outlined in paragraph 7b (4) for
                                    offenders returning to a destination outside the
                                    United States.
 6   SECNAVINST 5800.14A     7.d.(4) Ensure prompt notification of all recipients of
                             notifications that the previous notice is withdrawn in
                             the event that notification of an offender's return to
                             the community based on conviction for a sex offense           G
                             or crime against a minor has been made, after which
                             all such findings are disapproved in post-trial action
                             described in paragraph 7(c) (5), and no conviction for
                             a sex offense or crime against a minor is approved.
 7   OPNAVINST 1752.1B       9.g.(3) The responsible special agent provides monthly
                             case status updates to victims of sexual assault until        G
                             the investigation is complete and sent to command
                             for adjudication.
 8   OPNAVINST 1752.1B       9.g.(4) Ensure special agent participation in the
                             SACMG [Sexual Assault Case Management Group].                 G




                                                                                                 DODIG-2014-108 │ 35
Appendixes



                 Table D-2. Navy Service Requirements (cont’d)

                                   Guidance                                Requirement                          NCIS
                       9   SECNAVINST 5430.107        7.c.(1)(a) NCIS may initiate, independent of command
                                                      request, any investigative action within the purview
                                                      of this instruction and need not solicit authorization
                                                      to conduct any investigation. NCIS shall, however,
                                                      normally apprise the immediate senior in command           G
                                                      (ISIC) of the person or organization being investigated
                                                      that an investigation has been initiated. Any
                                                      commander, commanding officer or other appropriate
                                                      command authority within the Navy or Marine Corps
                                                      may request NCIS assistance.
                      10   SECNAVINST 5430.107        7c.(2) Dissemination and Retention of Reports: NCIS
                                                      shall: (a) Provide to each command, prosecutorial
                                                      authority or other appropriate activity a full report      G
                                                      of investigation regarding any offenses or incidents
                                                      investigated affecting that entity.
                      11   SECNAVINST 5430.107        7c.(2) Dissemination and Retention of Reports: NCIS
                                                      shall: (b) Maintain a central repository for reports of
                                                      investigation, counterintelligence data and security       G
                                                      clearance adjudication files created by the DON
                                                      [Department of the Navy] Central Adjudication Facility
                                                      (DON CAF).



                 Table D-3 depicts eight Air Force Service requirements and the degree to which
                 AFOSI addresses those requirements.

                 Table D-3. Air Force Service Requirements
                                   Guidance                                Requirement                          AFOSI
                      1    AFI 36-6001                2.7.1. DoD Directive requires the establishment of a
                                                      multi-disciplinary case management group, chaired
                                                      by the SARC, to meet monthly to review unrestricted
                                                      cases, improve reporting, facilitate monthly victim
                                                      updates, and discuss process improvement to ensure
                                                      system accountability and victim access to quality         B
                                                      services.
                                                      2.7.1.1. For unrestricted cases, the case management
                                                      group includes the SARC, VA, AFOSI, SF [Security
                                                      Forces], Healthcare Provider, HC [Chaplain], JA [Judge
                                                      Advocate] and the reporting victim’s commander.*
                      2    AFI 71-101V1               2.4. Defense Clearance and Investigations Index (DCII).
                                                      AFOSI will index subjects of criminal investigations
                                                      in DCII as soon as it is determined that credible          G
                                                      information exists that the subject committed a
                                                      criminal offense in accordance with AFPD [Air Force
                                                      Policy Directive] 71-1.
                  	
                      *	 AFOSIMAN 71-122, volume 1, July 22, 2014, paragraph 4.3.3.3., addresses case management
                         group participation. The publication of this guidance is not within the timeframe of
                         this evaluation.




36 │ DODIG-2014-108
                                                                                                       Appendixes



Table D-3. Air Force Service Requirements (cont’d)

             Guidance                               Requirement                           AFOSI
 3    AFI 71-101V1            2.6. Deoxyribonucleic Acid (DNA) Samples. AFOSI and
                              Security Forces will take DNA samples of suspects,
                              normally when fingerprints are taken, and send to the
                              United States Army Criminal Investigation Laboratory         G
                              (USACIL) according to DoDI 5505.14, Deoxyribonucleic
                              Acid (DNA) Collection Requirements for Criminal
                              Investigations.
 4    AFI 71-101V1            2.9.1. AFOSI will work closely with the servicing
                              SJA in matters involving violations of the Uniform
                              Code of Military Justice (UCMJ) or where the
                              Military Extraterritorial Jurisdiction Act (MEJA) may        G
                              apply. This collaboration will begin at the initiation
                              of and continue throughout substantive criminal
                              investigations.
 5    AFI 71-101V1            2.9.1. When appropriate, AFOSI will share investigative
                              data (written statements, evidence, etc.) as well as
                              information on anticipated leads in the investigation.       G
                              AFOSI will also coordinate with the assigned trial team
                              on all subject interviews when appropriate.
 6    AFI 71-101V1            2.17. Sexual Assaults. AFOSI will initiate investigations
                              as determined in Attachment 2 when unrestricted
                              reports are received and will safeguard Sexual Assault       G
                              Forensic Examination (SAFE) kits as evidence for
                              restricted reports in accordance with AFI 36-6001.
 7    AFI 71-101V1            3.1.5. PCA [Polygraph and Credibility Assessment]
                              Examinations of Sexual Assault Victims. The Air Force
                              PPMO [Polygraph Program Management Office]
                              will only consider approving a request for a PCA
                              examination of a sexual assault victim after the subject
                              of the allegation, if known, declines the offer to take a    G
                              PCA examination.
                              3.1.5.1. To avoid causing undue hardship for sexual
                              assault victims, PCA examination of such victims will
                              not ordinarily be approved unless circumstances
                              clearly warrant it.
 8    AFI 51-201              7.17. Law Enforcement and Investigative Personnel.
                              At the earliest opportunity after identification of a
                              crime victim or witness and when appropriate, law            G
                              enforcement and investigative personnel shall provide
                              to each victim and witness DD Form 2701, “Initial
                              Information for Victims and Witnesses of Crime.”




                                                                                                  DODIG-2014-108 │ 37
Appendixes




                 Appendix E
                 Comparison of CIGIE QSI Actions Across MCIOs
                 Table E-1 depicts 31 CIGIE Quality Standards of Investigation (actions) and the degree
                 to which each MCIO addressed those actions.

                 Legend:
                      MCIO guidance addresses the CIGIE action.                                                 G
                      MCIO should consider enhancing its guidance to better address CIGIE action.               B
                      MCIO should consider adding CIGIE actions to their guidance.                              Y


                 Table E-1. CIGIE Actions
                                                     CIGIE QSI Action                           CID     NCIS   AFOSI
                      1    Determine the planned focus and objectives of the investigation.         G    G      G
                      2    Identify possible violation(s) of law, rule, or regulation and the       G    G      G
                           corresponding elements of proof or standards.
                      3    Coordinate with appropriate authorities, if warranted (for               G    G      G
                           example, another IG or the Federal Bureau of Investigation).
                      4    Determine the applicable judicial venue and coordinate with              G    G      G
                           prosecutors, when appropriate.
                      5    Identify the investigative steps necessary to meet                       G    G      G
                           investigative objectives.
                      6    Use of a time-phased approach that ensures that individual leads
                           are pursued on a timely basis and that periodic evaluations of           G    G      G
                           progress occur. This would include an affirmative decision to
                           continue or terminate the investigation.
                      7    Ensure that investigative steps include the identification of
                           any causative factors that should be reported as weaknesses or           G    G      G
                           internal control issues requiring corrective action by
                           agency management.
                      8    Conduct investigations in a timely, efficient, thorough, and
                           objective manner.                                                        G    G      G

                      9    The investigator is a fact-gatherer and should not allow
                           conjecture, unsubstantiated opinion, bias or personal                    G    G      G
                           observations or conclusions to affect work assignments.
                      10   He or she [the investigator] also has a duty to be receptive to          G    G      G
                           evidence that is exculpatory, as well as incriminating.
                      11   A review of known information should precede a                           G    G      G
                           planned interview.
                      12   When conducting an interview, particular attention should be
                           given to obtaining the interviewee's observation and knowledge           G    G      G
                           of incidents and actions or statements of other persons
                           connected with the event.




38 │ DODIG-2014-108
                                                                                                      Appendixes



Table E-1. CIGIE Actions (cont’d)

                                 CIGIE QSI Action                           CID   NCIS   AFOSI
 13    The collection of evidence should be undertaken in such a way
       as to ensure that all known or obviously relevant material is        G      G      G
       obtained, the chain of custody is preserved, and the evidence is
       admissible in any subsequent proceeding.
 14    The validity of information and evidence obtained during an          G      G      G
       investigation should be verified.
 15    The results of investigative activities should be accurately and     G      G      G
       completely documented in the case file.
 16    Internal investigative guidelines should specifically and clearly    G      G      G
       address due diligence and timeliness of the documentation.
 17    Interviews, evidence collection, and other activities must
       be initiated, conducted, and reported in accordance with all
       applicable laws, rules, regulations, and should be conducted with
       due respect for the rights and privacy of those involved. This       G      G      G
       includes, for example, appropriate warnings and assurances,
       and grand jury restrictions.
 18    Supervisory reviews of case activities should occur periodically
       to ensure that the case is progressing in an efficient, effective,   G      G      G
       thorough, and objective, manner.
 19    Reports (oral and written) must thoroughly address all relevant
       aspects of the investigation and be accurate, clear, complete,
       concise, logically organized, timely and objective. All reports      G      G      G
       should accurately, clearly, and concisely reflect the relevant
       results of the investigator's efforts.
 20    In any report, the facts should be set forth to facilitate reader
       comprehension. This should include a clear and concise statement     G      G      G
       of the facts and applicable law, rule, or regulation that was
       allegedly violated or that formed the basis for an investigation.
 21    The principles of good report writing must be followed. A quality
       report will be logically organized, accurate, complete, concise,     G      G      G
       impartial, and clear and issued in a timely manner.
 22    Reports should contain exculpatory evidence and relevant
       mitigating information when discovered during any administrative
       investigation. Exculpatory evidence in a criminal or civil           G      G      G
       investigation must be brought to the attention of the
       assigned prosecutor.
 23    Evidence outlined in a report should be supported by                 G      G      G
       documentation in the investigative case file.
 24    The outcome or accomplishment (fines, savings, recoveries,
       indictments, convictions, suspensions and debarments, or             G      G      G
       management recommendations, etc.) should be documented
       in the file.
 25    In some cases it may be appropriate to note specific allegations
       that were not investigated to ensure decisionmakers (sic) can take   G      G      G
       further action as they deem appropriate.
 26    Systemic weaknesses or management problems disclosed in an
       investigation should be reported to agency officials as soon as      G      G      G
       practicable.




                                                                                                 DODIG-2014-108 │ 39
Appendixes



                 Table E-1. CIGIE Actions (cont’d)

                                                    CIGIE QSI Action                              CID   NCIS   AFOSI
                      27   Investigative data must be stored in a manner allowing effective
                           retrieval, reference, and analysis while ensuring the protection
                           of sensitive data (i.e., personally identifiable, confidential,
                           proprietary, or privileged information or materials). One of
                           the many hallmarks of an efficient organization is its ability to
                           retrieve information that it has collected. An effective information
                           management system creates and nourishes an institutional               G      G      G
                           memory. This, in turn, enhances the entire organization’s ability
                           to conduct pattern and trend analyses and to fulfill the mandate
                           of detection and prevention. Such a system also assists in the
                           process of making informed judgments relative to resource
                           allocation, training needs, investigative program development,
                           and prevention and implementation of the investigative process.
                      28   The degree to which an organization efficiently achieves its goals
                           is affected by the quality and relevance of information that is
                           collected, stored, retrieved, and analyzed. Information, or the lack
                           of it, has direct influence on management’s ability to make sound      G      G      G
                           decisions relating to investigative matters. Therefore, written
                           directives should exist that define the organizational component
                           responsible for record maintenance and the specific procedures
                           to be performed.
                      29   Accurate processing of information is essential to the mission of
                           an investigative organization. It should begin with the orderly,
                           systematic, accurate, and secure maintenance of a management
                           information system. Written guidance should define the data            G      G      G
                           elements to be recorded in the system. The guidance should be
                           based on legal requirements and needs and should cover the
                           proper security and storage of personally identifiable and other
                           sensitive information and the storage of discoverable information.
                      30   The investigative process often begins with information received
                           in the form of a complaint from an individual. The initial
                           complaint will rarely provide the agency with all the necessary
                           information and may be the first indication of a serious violation
                           of law. In accordance with the Inspector General Act, policies,        G      G      G
                           procedures, and instructions for handling and processing
                           complaints should be in place. Individuals receiving complaints
                           should obtain all pertinent details. The agency should adopt
                           procedures to ensure that basic information is recorded, held
                           confidential, and tracked to final resolution.
                      31   Establish guidelines, including the level of the approving
                           authority, for making a determination to initiate an investigation
                           or to pursue another course of action. Case assignments should
                           be based on resource considerations, geographical dispersion           G      G      G
                           and level of experience of personnel, and current workloads.
                           A decision not to investigate (refer to another entity or take no
                           action) should be documented.




40 │ DODIG-2014-108
                                                                                                     Appendixes




Appendix F
Comparison of IACP Actions Across MCIOs
Table F-1 depicts 25 actions identified in the IACP Investigative Strategies (IS). Each
IACP action was evaluated to determine the extent to which each MCIO’s policies
address the requirement.

Legend:
  MCIO guidance addresses the CIGIE action.                                               G
  MCIO should consider enhancing its guidance to better address CIGIE action.             B
  MCIO should consider adding CIGIE actions to their guidance.                            Y


Table F-1. Actions Identified within the IACP Investigative Strategies
                                 IACP Action                               CID   NCIS   AFOSI
  1    Create a timeline [for inclusion in report] to show trauma/post-
       assault behavior of the victim in context of previous behavior.
       For example, document dramatic physical changes such as             G      Y      G
       weight loss/gain or reported changes in daily routines and/or
       work performance.
  2    Use the victim’s exact words and place those words in
       quotations. Do not sanitize or “clean-up” the language used by      G      G      G
       the victim. Altered language may be used against the victim or
       officer in court.
  3    If the victim was incapacitated as a result of voluntary alcohol
       or drug use, show why this is an issue of increased vulnerability   G      G      G
       rather than culpability.
  4    Document any changes in victim/witness statements, especially
       as additional details are recalled following the initial trauma/    G      G      G
       shock of the assault.
  5    If at some point a consensual encounter turned nonconsensual,
       ask the victim to describe details about how and when the           G      G      G
       perpetrator’s behavior changed.
  6    Victims may not be able to resist physically. This may be an
       indicator of force or fear and should be documented.
         •	 Perpetrators of sexual assault generally use only as
              much violence as needed to attain submission. Force or       G      G      G
              violence may not be overt if the perpetrator can commit
              the crime by using lesser means (i.e. a weapon isn’t
              needed when you can use threats, alcohol, etc. [sic])
  7    Attend to the victim’s immediate health and safety concerns
       and questions about reporting and the criminal justice process      G      G      G
       before beginning the interview.
  8    Victims have a right to accept or decline all services. This
       does not mean that a thorough investigation should not be           G      G      G
       conducted.




                                                                                                DODIG-2014-108 │ 41
Appendixes



                 Table F-1. Actions Identified within the IACP Investigative Strategies (cont’d)

                                                      IACP Action                               CID   NCIS   AFOSI
                      9    Ask the victim if they would like to have a support person
                           present for the interview.
                             •	 It is best practice to allow victims to have an advocate
                                 or a support person of their choosing present during the        G     G       G
                                 medical exam and/or law enforcement interview. Ask the
                                 victim privately who they would like present and take
                                 action to support their wishes.
                      10   While victims are entitled to have someone with them
                           during the interview, look for signs of hesitation from the
                           victim in revealing all of the details of the assault in front of    G      Y      G
                           someone with whom they are close, like a spouse or parent;
                           or controlling or intimidating behavior by the support person
                           towards the victim.
                      11   Recognize the impact of trauma and how this affects an
                           individual’s behavior.
                             •	 Research shows that most victims of sexual assault never
                                  make a report to law enforcement. Of the victims who
                                  report, the majority do so after some delay. A delay in
                                  reporting should never deter a thorough investigation.
                                  A skillful prosecutor will be able to overcome any
                                  disadvantage a delay in reporting might cause when
                                  making the case in court.                                     G      G      G
                             •	 Most victims experience continuing trauma which may
                                  affect their physical, emotional, social, and economic
                                  state of being.
                             •	 Victims may experience difficulty remembering all the
                                  details of the sexual assault due to traumatic response.
                                  This does not mean they are lying or leaving out details
                                  intentionally. Often with time and as trauma recedes,
                                  details will emerge.
                      12   People react differently to trauma. Lack of emotion or the
                           presence of emotion is not an indicator of the legitimacy of the     G      G      G
                           assault, and either is common.
                      13   After sufficient time to conduct a thorough investigation,
                           schedule a follow-up interview to gather any information the
                           victim may have missed or not recalled earlier and to ask about
                           or clarify additional information learned.
                                                                                                G      G      G
                              •	 Unless there are exigent circumstances requiring an
                                   arrest or identification, delaying the follow-up interview
                                   will generally enhance the investigation and the quality
                                   of information obtained.
                      14   Do not polygraph victims. The practice of submitting victims
                           of sexual assault to a polygraph exam intimidates victims and
                           destroys the trust victims and the communities have with law         G      G      G
                           enforcement. Polygraphing negatively affects law enforcement’s
                           chance to successfully investigate sexual assault crimes.
                      15   "Physical evidence can be collected up to 120 hours (in some
                           states) following a sexual assault. The victim should be advised,
                           however, that critical physical evidence and documentation of
                           injuries may be lost with a delayed exam.                            G      G      G
                           Note: The Model Policy (2005) reflects a cutoff at 92 hours,
                           while the Investigative Strategies (2008) places the cutoff at 120
                           hours. This is most likely due to advancing forensic technology."




42 │ DODIG-2014-108
                                                                                                     Appendixes



Table F-1. Actions Identified within the IACP Investigative Strategies (cont’d)

                                 IACP Action                               CID   NCIS   AFOSI
 16   A victim’s right to change their mind regarding moving
      forward with the investigation and prosecution should only be
      constrained by the statute of limitations. Even then, the victim     G      G      G
      may serve as a witness in another case involving the same
      suspect, so an interview and investigation should always
      be conducted.
 17   As with other crimes, focus should remain on the suspect, not        G      G      G
      on the victim’s character, behavior, or credibility.
 18   Obtain consent or acquire a court order to secure a suspect
      forensic exam for probative evidence.
        •	 Like the victim, the suspect’s body carries evidence and
             can potentially confirm aspects of the victim’s account
             (e.g. identifying marks, injuries).
        •	 In some jurisdictions, a suspect forensic exam can be
             done incident to arrest or by requesting a court order for    G      G      G
             non-testimonial evidence.
      Additionally, the Model Policy reflects, “A search warrant may
      be needed to collect any evidence from the body of the suspect
      or even to collect clothing. If the suspect consents to such
      evidence collection procedures, documentation of voluntary
      consent shall be provided in the police report.’”
 19   Remind the victim that, due to the nature of trauma, it is typical
      not to remember all of the details of the sexual assault. Think
      out loud with the victim to identify new information in the          G      G      G
      victim’s account that may be used as evidence. This process
      may help jog additional memories.
 20   Grooming behavior, which may be indicative of premeditation
      is often used to test, select, and isolate victims and to make the
      potential victim feel comfortable and able to trust
      the perpetrator.
         •	 Why did the suspect choose this victim? What might
             make her/him less credible and/or more vulnerable?
         •	 How did the suspect create a situation to build trust?         G      G      G
         •	 Did the suspect monitor the victim physically or through
             electronic means?
         •	 What was the role of alcohol and/or drugs?
         •	 Did the suspect isolate or attempt to isolate the victim?
         •	 Why was the specific location for the assault chosen?
 21   Sexual assault cases are typically portrayed as “he said/
      she said” but in reality are often “he said/they said” cases.
      Perpetrators of this crime frequently have a history of acts of
      sexual violence. Previously unreported offenses may be found
      by interviewing the [people in] suspect’s social circles, [and]      G      G      G
      current and former partners.
        •	 Prior victims should be interviewed and their statements
             included in the current investigation.
 22   Victims will often confide in someone (e.g. a close friend).
      These individuals are considered “outcry witnesses” and their        G      G      G
      statement can provide powerful corroboration.




                                                                                                DODIG-2014-108 │ 43
Appendixes



                 Table F-1. Actions Identified within the IACP Investigative Strategies (cont’d)

                                                     IACP Action                                CID   NCIS   AFOSI
                      23   Suspects often boast or brag about their sexual encounters
                           to a friend or friends. These individuals are also considered        G      G      G
                           “outcry witness” and their statement(s) can provide powerful
                           corroboration of the details of the assault.
                      24   Monitoring and surveillance are often precursors to sexual           G      G      Y
                           assault. Check if stalking charges may apply.
                      25   Remain open to the possibility of drug-facilitated sexual assault.
                           Victims of a drug-facilitated assault may report black-outs, gaps    G      G      G
                           in time and memory, and a general uncertainty as to whether
                           or not an assault occurred.



                 Table F-2 depicts 67 actions identified in the IACP Model Policy (MP). Each IACP action
                 was evaluated to determine the extent to which each MCIO’s policies address
                 the requirement.

                 Table F-2. Actions Identified within the IACP Model Policy
                                                     IACP Action                                CID   NCIS   AFOSI
                      1    To ensure critical evidence is not lost, communications
                           personnel shall:
                             a. ask whether the victim has bathed, douched, urinated, or        G      Y      G
                                 made other physical changes and advise against
                                 doing so.
                      2    Evaluate the scene.                                                  G      G      G
                      3    Secure the crime scene to ensure that evidence is not lost,          G      B      G
                           changed, or contaminated.
                      4    Inform the victim that an officer of the same sex will be            G      G      G
                           provided if desired and available.
                      5    Record observations of the crime scene, including the
                           demeanor of the suspect and victim and document any injuries         G      G      G
                           or disheveled clothing.
                      6    Responding officers shall protect the integrity of the evidence
                           and guard the chain of custody by properly marking, packaging,       G      G      G
                           and labeling all evidence collected.
                      7    Label all evidence, including clothing worn at the time of the
                           assault and immediately afterward, especially the clothing worn      G      G      G
                           closest to the genitals (such as undergarments, pants,
                           and shorts).
                      8    Obtain photographs and videotape of the crime scene prior            G      G      G
                           to processing.
                      9    Obtain a diagram of the crime scene(s).                              G      G      G




44 │ DODIG-2014-108
                                                                                                    Appendixes



Table F-2. Actions Identified within the IACP Model Policy (cont’d)

                                IACP Action                               CID   NCIS   AFOSI
 10   Officers shall introduce the need for a medical examination
      to the victim explaining the importance to investigative and
      apprehension efforts as well as for the victim’s well-being.        G      G      G
      Officers shall not coerce victims to go to the hospital or to
      provide samples for drug screening.
 11   DNA evidence plays a crucial role in the sexual assault
      investigation. In addition to the victim’s and suspect’s bodies
      and clothing, there are many other potential sources such
      as condoms, sheets, blankets, pillows, and bottles that may         G      G      G
      contain biological evidence such as blood, sweat, tissue, saliva,
      hair, and urine. To properly collect DNA evidence, officers shall
      use sterile gloves and change [the gloves] as needed.
 12   [To properly collect DNA evidence] use sterile swabs, papers,       G      G      G
      solutions, and tools.
 13   [To properly collect DNA evidence] package evidence in              G      G      G
      individual envelopes.
 14   Avoid touching the area where potential DNA evidence                G      G      G
      may exist.
 15   [To properly collect DNA evidence] avoid talking, sneezing, and     G      G      G
      coughing over evidence.
 16   Air dry evidence before packaging.                                  G      G      G
 17   [To properly collect DNA evidence] put evidence into new paper      G      G      G
      bags or envelopes, not plastic.
 18   The [SAFE] kit shall not be allowed to freeze or be exposed to      G      G      G
      heat such as being near a car’s interior heater.
 19   The majority of non-stranger sexual assaults result in a consent
      defense. Thus, evidence of particular importance includes           G      G      G
      evidence of genital or nongenital injury.
 20   [In non-stranger assault] obtain information regarding the          G      G      G
      suspect’s size and strength in comparison to the victim’s.
 21   [In non-stranger assault] obtain information regarding the
      environment in which the assault took place (such as isolation      G      G      G
      or soundproofing).
 22   Responding officers shall be familiar with information regarding
      the victim’s behavior after the assault, including posttraumatic    G      G      Y
      stress [in non-stranger assault].
 23   Based on the victim’s emotional and physical state, questions of
      the victim concerning the assault and description and location      G      G      G
      of the suspect shall be limited.
 24   Responding officers must identify and interview any potential
      witnesses, bearing in mind that there may be multiple               G      G      G
      crime scenes.




                                                                                               DODIG-2014-108 │ 45
Appendixes



                 Table F-2. Actions Identified within the IACP Model Policy (cont’d)

                                                      IACP Action                               CID   NCIS   AFOSI
                      25   Based on the length of time between the assault and report of
                           the crime and the individual’s personal history, the victim may
                           be in crisis and experiencing post-traumatic-stress disorder or
                           rape trauma syndrome and exhibiting a range of behaviors that
                           will likely change over time.
                             •	 The victim’s response to the trauma of a sexual assault
                                   shall not be used in any way to measure credibility.         G      G      G
                                   When drugs or alcohol are involved, the victim may have
                                   limited recollection or be unable to give a complete
                                   account of the crime. Not knowing the details of what
                                   happened may exacerbate the trauma experienced by
                                   the victim.
                             •	 Interviews shall be conducted promptly if the victim is
                                   coherent and consensual.
                      26   Proceeding with or conducting a thorough investigation shall         Y      Y      G
                           not be contingent upon laboratory findings.
                      27   Investigators shall remain patient and maintain an open mind         G      G      G
                           while listening to the victim’s account.
                      28   Remember that victims may struggle with gaps in memory.              G      G      G
                      29   Avoid leading questions while conducting the interview.              G      G      G
                      30   Use simple terminology appropriate to the victim’s age,              G      G      G
                           sophistication, and intelligence.
                      31   Prior to initiating the interview, the officer shall interview any
                           witness who might have seen or spoken with the victim before,        G      G      G
                           during, or after the assault.
                      32   Prior to initiating the interview, the [investigator] shall: Take
                           responsibility for excluding a support person when appropriate       G      Y      G
                           and offer the victim and support person an explanation.
                      33   Secure a private location for the interview that is free             G      G      G
                           from distractions.
                      34   Express sympathy to the victim and an interest in the victim’s
                           well-being.                                                          G      G      G

                      35   Inform the victim of the need and importance of full disclosure      G      G      G
                           of any and all recent drug use.
                      36   Explain the nature of the preliminary interview and the need         G      G      G
                           for follow-up contacts.
                      37   Ask victims to explain what they remember and how they felt          G      G      Y
                           [during and after the assault].
                      38   Explain that other professionals such as forensic examiners,
                           detectives, evidence technicians, and prosecutors may have           G      G      G
                           additional questions.
                      39   Remind the victim that visible evidence of injury may
                           appear later, and to contact the investigators for additional        G      G      G
                           photographs or other documentation.
                      40   Encourage the victim to contact the investigator with any            G      G      G
                           additional information or evidence.




46 │ DODIG-2014-108
                                                                                                       Appendixes



Table F-2. Actions Identified within the IACP Model Policy (cont’d)

                                   IACP Action                               CID   NCIS   AFOSI
 41   Explain how to contact police if harassed or intimidated by            G      G      G
      the suspect(s).
 42   Delayed victim reporting is common in sexual assault cases
      due to the trauma and fear experienced by victims and should
      not deter a thorough investigation. Officers shall inquire about       G      G      G
      and document the reasons for a delayed report while avoiding
      questions that could be perceived as judgmental or accusatory.
 43   Address any special needs of the victim, such as communication         G      G      G
      or mobility, and notify the victim advocate of the special need.
 44   Explain to the victim the potential consequences if any part of        G      G      G
      the examination is refused.
 45   Notify a victim advocate to offer the victim support when a            G      G      G
      forensic examination is to be conducted.
 46   Advise the victim that the forensic examiner will collect any
      clothing that was worn during or immediately after the                 G      G      G
      sexual assault.
 47   Assist in arranging for clothing the victim may need after             G      G      G
      the examination.
 48   Obtain a signed release from the victim for access to                  G      G      G
      medical records.
 49   When a forensic examination is indicated, the investigating
      officer shall brief the examining nurse or physician about the         G      G      G
      details of the sexual assault, as they are known at that time.
 50   The nurse or physician shall brief the investigating officer at the    G      G      G
      conclusion of the examination.
 51   If a drug-facilitated sexual assault is suspected, it is critical to   G      G      G
      obtain a urine sample from the victim as soon as possible.
 52   Protocols for responding to illegal substance abuse by victims
      (including underage drinking) shall be followed and never used         G      Y      B
      to discredit or discourage the victim from reporting the assault.
 53   Retrieve communications tapes and printouts.                           G      G      G
 54   Coordinate with relevant agencies, assistance organizations,
      service providers, or sexual assault response professionals to         G      G      G
      address the needs of the victim and to discuss the best means
      for keeping the victim informed.
 55   In preparing for the interview, the investigator shall develop
      an investigative strategy based on the nature of the assault
      and the possible defenses available to the suspect (such as
      denial, mistaken identity, or consent). This strategy shall guide
      the questions and other evidence collection efforts. Critical
      evidence collection efforts include: evaluating whether a
      pretext phone call is appropriate.                                     G      G      G
      Additionally, the Investigative Strategies states, “Pretext phone
      calls are a strong tool to be considered when the victim and
      suspect know each other. The transcript from a monitored call
      can provide useful evidence as facts are corroborated and the
      suspect makes admissions or gives improbable statements.




                                                                                                  DODIG-2014-108 │ 47
Appendixes



                 Table F-2. Actions Identified within the IACP Model Policy (cont’d)

                                                       IACP Action                                 CID   NCIS   AFOSI
                      56   An in-depth follow-up interview shall be conducted after the
                           victim has been medically examined and treated, and personal            G      G      G
                           needs have been met.
                      57   In the event that the victim is still under the influence of drugs
                           or alcohol, has been injured, or as a result of the assault has not     G      G      G
                           slept, and barring exigent circumstances requiring an arrest or
                           identification, the interview shall be delayed.
                      58   The interview shall be conducted in a location that is
                           convenient, accessible, and comfortable for the victim. The
                           investigator shall provide or arrange for transportation for the
                           victim when needed.                                                     G      G      G
                           Additionally, the Investigative Strategies states, “Help victims
                           gain [back] a sense of control by involving them in the decision
                           of when and where to hold the interview.”
                      59   When contacting the victim, investigators should address arrest         G      G      G
                           decisions including an explanation of the status of the case.
                      60   Document the victim’s actions in response to the attack, the
                           victim’s state of mind during the attack, specific statements
                           made by the perpetrator, and the nature of any relationship             G      G      G
                           with the suspect and explain the importance of these questions
                           from a prosecutorial standpoint.
                      61   Encourage the victim’s continued support in the investigation,
                           apprising the victim of future investigative and prosecutorial          G      G      G
                           activities that will or may require involvement.
                      62   Respect a victim’s inability, or decision not, to be involved in
                           criminal justice proceedings and always be willing to offer             G      G      G
                           continued assistance and referrals.
                      63   It is essential that the victim and suspect examinations [must]         G      G      G
                           take place in different locations.
                      64   Immediately after the preliminary suspect interview, the
                           investigating officer shall determine whether a forensic sexual         G      G      G
                           assault examination should be obtained for the suspect.
                      65   [If the SAFE kit was based on voluntary consent,] the
                           investigator shall clearly document the suspect’s freedom to            B      G      G
                           decline any part of the examination and to leave at any time.
                      66   First-line officers and supervisors shall be trained to collect cells
                           from inside a suspect’s cheek for DNA profiling. Cotton-tipped          G      G      G
                           swabs or other buccal DNA collectors shall be readily available
                           to investigators in the field.
                      67   Photograph and videotape of the suspect’s injuries (if any).            G      G      G




48 │ DODIG-2014-108
                                                                                                                 Appendixes




Appendix G
Requirements CID Should Consider Adding to
its Guidance
DoD Requirements
None


Service Requirements
None


CIGIE QSI
None


IACP Actions
Table G-1 depicts one action identified in IACP Model Policy (MP) and
Investigative Strategies (IS) that CID should consider adding to its agency
guidance. The IACP column shows the origin of the action: Model Policy (MP)
or Investigative Strategies (IS).

Table G-1. IACP Action

                                              Action                                             IACP

     1    Proceeding with or conducting a thorough investigation shall not be                    MP
          contingent upon laboratory findings.*
	
    *	 Includes: five subitems that “[i]nvestigators shall” do: “Remain patient and maintain an open
       mind while listening to the victim’s account”; “Remember that victims may struggle with gaps in
       memory”; “Avoid leading questions while conducting the interview”; “Use simple terminology
       appropriate to the victim’s age, sophistication, and intelligence”; and “Avoid using jargon or
       police, medical ,or legal terms.” (IACP Investigating Sexual Assaults Model Policy, Effective Date
       May 2005, Section IV.C. 2. Victim Interview Protocol, page 4.) These five items are covered in
       CID policy guidance.




                                                                                                            DODIG-2014-108 │ 49
Appendixes




                 Appendix H
                 Requirements CID Should Consider Enhancing
                 in its Guidance
                 DoD Requirements
                 Table H-1 depicts one DoD requirement that CID should consider enhancing in
                 its guidance.

                 Table H-1. DoD Requirement
                                  DoD Issuance                                     Requirement
                          1     DoDI 5505.18         Encl 2, 11. The MCIO investigator assigned to conduct an adult sexual
                                                     assault investigation must inform the victim of a sexual assault ... of
                                                     the availability of legal assistance and the services of a SARC or a SAPR
                                                     VA. The member or dependent must also be informed that the legal
                                                     assistance and the services of a SARC or a SAPR VA are optional and
                                                     may be declined, in whole or in part, at any time.
                                                     [Enhance to include advisement that victim will be advised of the right
                                                     to consult with the SARC, and the SARC and VA services are optional
                                                     and may be declined, in whole or in part, at anytime.]


                 Service Requirements
                 None


                 CIGIE QSI
                 None


                 IACP Actions
                 Table H.2 depicts one action identified in IACP Model Policy (MP) and
                 Investigative Strategies (IS) that CID should enhance in its policy. The IACP column
                 shows the origin of the action: Model Policy (MP) or Investigative Strategies (IS).

                 Table H-2. IACP Action
                                                                   Action                                            IACP
                      1       [If the SAFE kit was based on voluntary consent,] the investigator shall clearly       MP
                              document the suspect’s freedom to decline any part of the examination and
                              to leave at any time.




50 │ DODIG-2014-108
                                                                                                            Appendixes




Appendix I
Requirements NCIS Should Consider Adding to
its Guidance
DoD Requirements
None


Service Requirements
Table I-1 depicts one Navy requirement that NCIS should consider adding to
its guidance.

Table I-1. Navy Requirement
          DoD Issuance                                  Requirement
   1    SECNAVINST        Enclosure (3), “Responsibilities,” paragraph 4.b., “Director, Naval
        1752.4B           Criminal Investigative Service (NCIS) shall: . . . Data Reporting. Collect
        (Sexual Assault   all data according to DoD annual reporting requirements, as explained
        Prevention and    in enclosure (12), and submit all data in coordination with Service
        Response)         inputs from the Navy and Marine Corps.”


CIGIE QSI
None




                                                                                                       DODIG-2014-108 │ 51
Appendixes



                 IACP Actions
                 Table I-2 depicts six IACP actions that NCIS should consider adding to its agency
                 guidance. The IACP column shows the origin of the action: Model Policy (MP) or
                 Investigative Strategies (IS). There are a number of actions the IACP attributes to
                 non-investigators, but we maintain MCIO investigators should receive guidance and
                 be knowledgeable about those actions.

                 Table I-2. IACP Actions

                                                                  Action                                           IACP

                       1    Create a timeline [for inclusion in the report] to show trauma/post-assault             IS
                            behavior of the victim in context of previous behavior. For example,
                            document dramatic physical changes such as weight loss/gain or reported
                            changes in daily routines and/or work performance.
                       2    While victims are entitled to have someone with them during the interview,              IS
                            look for signs of hesitation from the victim in revealing all of the details of
                            the assault in front of someone with whom they are close, like a spouse or
                            parent; or controlling or intimidating behavior by the support person towards
                            the victim.
                       3    To ensure critical evidence is not lost, communications personnel [could                MP
                            include investigators] shall ask whether the victim has bathed, douched,
                            urinated, or made other physical changes and advise against doing so.
                       4    Prior to initiating the interview, the officer shall: . . . Take responsibility         MP
                            for excluding a support person when appropriate and offer the victim and
                            support person an explanation.
                       5    Proceeding with or conducting a thorough investigation shall not be                     MP
                            contingent upon laboratory findings.*

                       6    Protocols for responding to illegal substance abuse by victims (including               MP
                            underage drinking) shall be followed and never used to discredit or
                            discourage the victim from reporting the assault.
                  	
                      *	 Includes: five subitems that “[i]nvestigators shall” do: “Remain patient and maintain an open
                         mind while listening to the victim’s account”; “Remember that victims may struggle with gaps in
                         memory”; “Avoid leading questions while conducting the interview”; “Use simple terminology
                         appropriate to the victim’s age, sophistication, and intelligence”; and “Avoid using jargon or
                         police, medical ,or legal terms.” (IACP Investigating Sexual Assaults Model Policy, Effective Date
                         May 2005, Section IV.C. 2. Victim Interview Protocol, page 4.) These five items are covered in
                         NCIS policy guidance.




52 │ DODIG-2014-108
                                                                                                       Appendixes




Appendix J
Requirements NCIS Should Consider Enhancing in
its Guidance
DoD Requirements
None


Service Requirements
None


CIGIE QSI
None


IACP Actions
Table J-1 depicts one action identified in IACP Model Policy (MP) and
Investigative    Strategies      (IS)   that    NCIS     should     enhance     in   its     policy.
The IACP column shows the origin of the action: Model Policy (MP) or
Investigative Strategies (IS).

Table J-1. IACP Action

                                        IACP Action                                        IACP

  1    Secure the crime scene to ensure that evidence is not lost, changed,                MP
       or contaminated.
       [Suggest NCIS 3, chapter 34, paragraph 34-4.4, be enhanced by stating,
       “a detailed search shall be conducted as soon as possible.”]




                                                                                                  DODIG-2014-108 │ 53
Appendixes




                 Appendix K
                 Requirements AFOSI Should Consider Adding to
                 its Guidance
                 DoD Requirements
                 None


                 Service Requirements
                 None


                 CIGIE QSI
                 None


                 IACP Actions
                 Table K-1. depicts three IACP actions that AFOSI should consider adding to its
                 agency guidance. The IACP column shows the origin of the action: Model Policy (MP)
                 or Investigative Strategies (IS).

                 Table K-1. IACP Actions

                                                               Action                                    IACP

                      1   Monitoring and surveillance are often pre-cursors to sexual assault. Look to    IS
                          see if stalking charges may apply.
                      2   Ask victims to explain what they remember and how they felt [during and        MP
                          after the assault].

                      3   Responding officers shall be familiar with information regarding the           MP
                          victim’s behavior after the assault, including posttraumatic stress [in
                          non-stranger assault].




54 │ DODIG-2014-108
                                                                                                               Appendixes




Appendix L
Requirements AFOSI Should Consider Enhancing in
its Guidance
DoD Requirements
Table L-1 depicts three DoD requirements that AFOSI should consider enhancing in its
guidance.

Table L-1. DoD Requirements

      DoD Issuance                                      Requirement
    DoDI 1030.2        6.2. and 6.2.1 through 6.2.3 [Law enforcement investigators and criminal
                       investigators shall inform all victims and witnesses, as appropriate, of:]
                       The status of the investigation of the crime, to the extent providing such
                       information does not interfere with the investigation.
                       The arrest of the suspected offender.
                       A decision not to pursue further investigation.
                       [Enhance guidance to require briefings to commanders every 30 days so they
                       can provide their required monthly victim briefings.]
    DoDI 5505.18       Encl 2, 11. Pursuant to section 581 of Reference (o), the MCIO investigator
                       assigned to conduct an adult sexual assault investigation must inform the
                       victim of a sexual assault (defined as a member of the Armed Forces or a
                       dependent) of the availability of legal assistance and the services of a SARC or
                       a SAPR VA. The member or dependent must also be informed that the legal
                       assistance and the services of a SARC or a SAPR VA are optional and may be
                       declined, in whole or in part, at any time.
                       [Enhance guidance to include guidance that the victim will be advised of the
                       right to consult with the SARC and VA, and their services along with those of
                       the Special Victim Counsel, are optional and may be declined, in whole or in
                       part, at any time.]
    DoDI 6495.02       Encl 9, 1.c.: Required CMG members shall include: … MCIO . . . . MCIO,
                       DoD law enforcement, and the legal representative or SJA shall provide
                       case dispositions.
                       Encl 9, 2.e.: For each victim, each CMG member who is involved with and
                       working on a specific case will provide an oral update without violating victim
                       confidentiality or disclosing privileged communications.*
	
    *	 AFOSIMAN 71-122, volume 1, paragraph 4.3.3.3., July 22, 2014, addresses case management
       group participation. The publication of this guidance is not within the timeframe of
       this evaluation.



Service Requirements
None


CIGIE QSI
None



                                                                                                          DODIG-2014-108 │ 55
Appendixes



                 IACP Actions
                 Table L-2 depicts one IACP investigative action that AFOSI should consider enhancing
                 in its guidance. The IACP column shows the origin of the action: Model Policy (MP)
                 or Investigative Strategies (IS).

                 Table L-2. IACP Action

                                                              Action                                  IACP
                      1   Protocols for responding to illegal substance abuse by victims (including   MP
                          underage drinking) shall be followed and never used to discredit or
                          discourage the victim from reporting the assault.




56 │ DODIG-2014-108
                          Appendixes




Appendix M
Independent Review




                     DODIG-2014-108 │ 57
Management Comments




                 Management Comments
                 CID Comments




58 │ DODIG-2014-108
                        Management Comments



CID Comments (cont’d)




                              DODIG-2014-108 │ 59
Management Comments



                 CID Comments (cont’d)




60 │ DODIG-2014-108
                        Management Comments



CID Comments (cont’d)




                              DODIG-2014-108 │ 61
Management Comments



                 NCIS Comments




62 │ DODIG-2014-108
                         Management Comments



NCIS Comments (cont’d)




                               DODIG-2014-108 │ 63
Management Comments



                 AFOSI Comments




64 │ DODIG-2014-108
                          Management Comments



AFOSI Comments (cont’d)




                                DODIG-2014-108 │ 65
Management Comments



                 AFOSI Comments (cont’d)




66 │ DODIG-2014-108
                          Management Comments



AFOSI Comments (cont’d)




                                DODIG-2014-108 │ 67
Acronyms and Abbreviations




                 Acronyms and Abbreviations
                            AAR After Action Review
                             AFI Air Force Instruction
                          AFOSI Air Force Office of Special Investigations
                      AFOSIMAN Air Force Office of Special Investigations Manual
                           AFPD Air Force Policy Directive
                         APCSM Adult Private Consensual Sexual Misconduct
                              AR Army Regulation
                             CAF Central Adjudication Facility
                             CID U.S. Army Criminal Investigation Command
                        CID PAM U.S. Army Criminal Investigation Command Pamphlet
                            CIDR U.S. Army Criminal Investigation Command Regulation
                           CIGIE Council of the Inspectors General on Integrity and Efficiency
                           CMG Case Management Group
                             DA Department of the Army
                            DCII Defense Clearance and Investigation Index
                           DCIO Defense Criminal Investigative Organizations
                             DES Director of Emergency Services
                            DNA Deoxyribonucleic Acid
                           DoDD Department of Defense Directive
                           DoDI Department of Defense Instruction
                            DON Department of the Navy
                             FSC Forensic Science Consultant
                             FSO Forensic Science Officer
                            GAO Government Accountability Office
                            IACP International Association of Chiefs of Police
                              IG Inspector General
                              IP Investigative plan[s]
                               IS Investigative Strategy
                             ISIC Immediate Senior In Command
                             IVA Installation Victim Advocate
                              JA Judge Advocate
                           MCIO Military Criminal Investigative Organization
                           MCRT Major Case Response Team
                           MEJA Military Extraterritorial Jurisdiction Act
                             MP Model Policy
                            MRE Rules of Evidence
                            NCIS Naval Criminal Investigative Service




68 │ DODIG-2014-108
                                                                          Acronyms and Abbreviations




Acronyms and Abbreviations (cont’d)
         OIG Office of Inspector General
 OPNAVINST Department of the Navy Chief of Naval Operations Instruction
        PCA Polygraph and Credibility Assessment
        PDD Psychophysiological Detection of Deception
         PM Provost Marshal
      PPMO Polygraph Program Management Office
         QSI Quality Standards for Investigation
         RAs Resident Agencies
         SAC Special Agent-in-Charge
     SADMS Sexual Assault Data Management System
        SAFE Sexual Assault Forensic Examination
        SAIC Special Agent-in-Charge
       SAPR Sexual Assault Prevention and Response
      SAPRO Sexual Assault Prevention and Response Office
       SARB Sexual Assault Review Board
       SARC Sexual Assault Response Coordinator
       SART Sexual Assault Response Team
        SATI Sexual Assault Training and Investigations
        SAVI Sexual Assault Victim Intervention
 SECNAVINST Secretary of the Navy Instruction
          SF Standard Form/Security Forces
         SJA Staff Judge Advocate
         SVC Special Victim Counsel
       UCMJ Uniform Code of Military Justice
    USACIDC United States Army Criminal Investigation Command
      USACIL United States Army Criminal Investigation Laboratory
       U.S.C. United States Code
       USPS United States Postal Service
         UV Ultraviolet
          VA Victim Advocate
         VPS Victim Preference Statement
      VWAP Victim and Witness Assistance Program




                                                                                     DODIG-2014-108 │ 69
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
